<html>
<title> - THE ROLE OF CERTIFICATION IN REWARDING SUSTAINABLE FISHING</title>
<body><pre>[Senate Hearing 113-269]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-269

 
       THE ROLE OF CERTIFICATION IN REWARDING SUSTAINABLE FISHING

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON OCEANS, ATMOSPHERE, 
                       FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-853                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6918699b6958385829e939a86d895999bd8">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
MARTIN HEINRICH, New Mexico          RON JOHNSON, Wisconsin
EDWARD MARKEY, Massachusetts         JEFF CHIESA, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARK BEGICH, Alaska, Chairman        MARCO RUBIO, Florida, Ranking 
BILL NELSON, Florida                     Member
MARIA CANTWELL, Washington           ROGER F. WICKER, Mississippi
RICHARD BLUMENTHAL, Connecticut      KELLY AYOTTE, New Hampshire
BRIAN SCHATZ, Hawaii                 DAN COATS, Indiana
MARTIN HEINRICH, New Mexico          TIM SCOTT, South Carolina
                                     TED CRUZ, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 24, 2013...............................     1
Statement of Senator Begich......................................     1
Statement of Senator Rubio.......................................     3
Statement of Senator Nelson......................................     4
Statement of Senator Heinrich....................................    21
Statement of Senator Markey......................................    23
Statement of Senator Blumenthal..................................    49

                               Witnesses

Samuel D. Rauch III, Acting Assistant Administrator, National 
  Marine Fisheries Service, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................     5
    Prepared statement...........................................     7
Darren Blue, Assistant Commissioner, Office of Facilities 
  Management and Services Programs, Public Buildings Service, 
  General Services Administration................................    10
    Prepared statement...........................................    11
Stefanie Moreland, Fisheries Policy Advisor to Governor Sean 
  Parnell, on behalf of the State of Alaska......................    27
    Prepared statement...........................................    28
Jeffrey Rice, Senior Director, Sustainability, Wal-Mart Stores, 
  Inc............................................................    34
    Prepared statement...........................................    35
Hon. Michael Montelongo, Senior Vice President, Sodexo, Inc......    37
    Prepared statement...........................................    39
John Connelly, President, National Fisheries Institute...........    41
    Prepared statement...........................................    43

                                Appendix

Gulf Seafood Institute, prepared statement.......................    57
Letter dated October 3, 2013 to Hon. Mark Begich and Hon. Richard 
  Blumenthal from Michael Montelongo, Senior Vice President, 
  Public Policy and Corporate Affairs, Sodexo, Inc...............    59
Response to written question submitted by Hon. Edward Markey to:
    Darren Blue..................................................    60
    Hon. Michael Montelongo......................................    60


       THE ROLE OF CERTIFICATION IN REWARDING SUSTAINABLE FISHING

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 2013

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:34 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, as we call the 
Subcommittee on Oceans, Atmosphere, Fisheries and Coast Guard 
to order. Today, we're going to be talking about the role of 
certification in rewarding sustainable fisheries.
    As Chairman of the U.S. Senate Subcommittee on Oceans and 
Fisheries, I'm often accused of bragging about Alaska, but 
there's so much, to be honest with you, to brag about. We have 
more coastline and marine waters than the rest of the nation. 
We produce more than half of the nation's wild fish. And we do 
it the right way.
    Sustainably is written into our Alaska constitution. Alaska 
Department of Fish and Game regulates salmon harvest to ensure 
adequate escapement to keep the fish coming back year after 
year. And they do.
    Alaska fisherman just proved it again, landing a whopping 
270 million salmon this past summer, eclipsing the previous 
record catch by almost 50 million. Our marine fisheries, 
managed by NOAA Fisheries and the North Pacific Fisheries 
Management Council, regulates some of the largest fish stocks 
in the world and they are doing a great job. Alaska produces 
over four billion pounds of pollock, cod, and other groundfish 
every year. National standards set by the Magnuson-Stevens Act, 
named after Alaska's late Senator Ted Stevens and Washington's 
Warren Magnuson, restrict catches to sustainable levels.
    Does this mean that everything is always perfect? Of course 
not. Fish are not static. We control the harvest, but changing 
conditions, ocean conditions and other factors out of our 
control can affect the population dramatically. But neither is 
our management of fisheries static. It is a continual process 
of stock assessment, reassessment, and making the tough 
decisions to manage our fisheries for the long run.
    The State Fish Board and the Federal Regional Fish Councils 
allow scientists, fishermen and conservationists to look at the 
data and challenge assumptions. Not everyone is always happy 
with the final decision, but it is an open, democratic 
regulatory process. In Alaska, the North Pacific Council has 
never exceeded scientifically set catch limits. Our fisheries 
are regarded as one of the best managed in the world.
    I'm looking forward to a positive discussion today in our 
record of the fisheries sustainability, and why consumers and 
retailers can be confident about the fish they buy from Alaska 
and those landed under the Magnuson-Stevens Act.
    I have to say, I was offended by the recent release of the 
``We Don't Farm Like This'' video, by the World Wildlife Fund 
Canada, and touting Marine Stewardship Council. The short 
animated video grossly misrepresents the harvesting methods of 
longline, purse seines, trawl fisheries and smears them 
unsustainable. That is shocking since the WWF generally had a 
good reputation of working with fishermen on common issues, and 
especially offensive since the MSC has certified longline, 
seine and trawl fisheries in Alaska as sustainable, and takes 
industry money to label them as much.
    MSC says they were aware of the WWF initiative, which one 
of their board members said, ``Seemed like a good idea, 
initially.'' Now they are both backpedaling, as they should. 
Regrettably, it underscores the current issues over such third-
party certification programs. Many retailers and food service 
providers today are demanding seafood be sustainable. That is a 
good thing. Alaska has a good story to tell.
    Our reliance just on any single group can be a problem. 
Alaska salmon industry dropped MSC certification last year, 
because of the shifting goal post, an increasing cost by this 
NGO. They were still confident in our reputation for 
sustainability. With the release of this video, others must be 
considering the same.
    Today's hearing, on the certification of seafood 
sustainability, was scheduled before this ugly, disingenuous 
video went viral. I didn't invite MSC to the hearing because I 
wanted to focus on a broader issue here, but this video is hard 
to ignore. I've asked WWF and MSC for an explanation for what 
they were thinking when this was made. I also think they owe an 
apology to Alaska fishermen and fishermen around the Nation who 
make their living by providing healthy sustainable seafood. I 
won't ask our witnesses to respond to this regrettable video 
since they didn't have anything to do with it. But I do welcome 
their testimony on their perspectives on seafood 
sustainability.
    In the first panel is going to be Mr. Sam Rauch, Acting 
Assistant Administrator for the National Marine Fisheries 
Service; and Darren Blue, Assistant Commissioner for Facilities 
Management and Service Programs for the General Services 
Administration.
    In the second panel we will welcome: Stefanie Moreland, the 
Special Assistant for Fisheries with the State of Alaska, 
Office of the Governor; Mr. John Connelly, President of the 
National Fisheries Institute; and then Mr. Jeffrey Rice, Senior 
Director for Sustainability at Wal-Mart Stores; and Mr. Michael 
Montelongo, Senior Vice President for Public Policy and 
Corporate Affairs of Sodexo, a major international food service 
provider.
    We will welcome today's witnesses, but first we have 
opening statement by the Ranking Member.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman, for holding this 
hearing.
    The focus of this hearing is on a procurement and 
contracting process. And, more specifically, on the definition 
and role of ``sustainability'' in this process.
    Now, let me begin by saying my position and that is that I 
respect the right of private companies to make their own 
procurement decisions without interference from the Federal 
Government. When it comes to Federal procurement and 
contracting practices and specifically procurement of seafood 
by Federal agencies where there are contractors, I do think 
this hearing is very timely.
    Now, many of you who are here today are familiar with the 
debate that's been publicly ongoing, for example, due to the 
strong voices of Senators like Senator Murkowski and, of course 
Senator Begich and others since June of this year, regarding 
the National Park Services use of third-party certification for 
sustainably-managed seafood.
    Now, due to the service's use of the Monterey Bay Aquarium 
Seafood Watch List, that's the standard for sustainable 
seafood. Fish, such as the Wild Alaska salmon, are suddenly 
ineligible for purchase at National Parks across the country. 
Of course, being from Florida, an even greater concern to me, 
and I know that of Senator Nelson as well, when the Parks 
Service made their announcement is Red Snapper.
    Then both the Gulf of Mexico and the South Atlantic would 
also have been ineligible for purchase at national parks across 
the country, despite the fact that these fisheries have been 
rigorously, some would say too rigorously, managed by NOAA.
    Now, as you may know, late last night the GSA posted on 
their website an updated version of their guidelines that no 
longer reference third-party certification. But I personally 
believe this narrative still deserves attention, because I feel 
it is part of a larger systemic pattern being conducted by the 
administration.
    When I first began examining this issue, I wondered why are 
we even here; how did we get here. How did fisheries, such as 
Red Snapper or Wild Alaska salmon, that are managed by the 
United States Federal Government, suddenly become ineligible 
for purchase by the very government that manages them? And you 
don't have to dig deep to find the answer.
    On October 5, 2009, the President issued a 15-page 
Executive Order that, among other things, led to health and 
sustainability guidelines issued by the General Services 
Administration, who will be testifying here today, in 
developing these guidelines. In typical, my opinion, 
bureaucratic fashion, the GSA did not even consult with NOAA; 
the sole agency charged with fisheries management when working 
to define what is sustainable seafood.
    Instead, GSA looked to environmental organizations, such as 
the Monterey Bay Aquarium to define sustainable for procurement 
purposes for the entire Federal Government. And the result has 
been that U.S. fishermen, whose own livelihoods depend on 
keeping fisheries sustainable, are baring the economic burden 
of no longer being eligible for Federal procurement at national 
parks despite their adherence to fishery management plans under 
NOAA.
    Now why this is important is the essence of the one thing I 
think we as country share, as a shared value, is the notion 
that in America, people who work hard and sacrifice should have 
a real opportunity to achieve a better life and middle class 
prosperity.
    These fishery jobs are the epitome of that. These are 
hardworking people who sacrifice, who put a lot on the line; 
not just to feed their families, but to provide for the people 
that work for them. And they're being unnecessarily punished by 
this constant Federal interference. And in my opinion, today's 
hearing is just one more example of this administration blindly 
adhering to the environmental views of a few at the economic 
cost of many of these hardworking, middle-class Americans from 
Alaska all the way to Florida.
    These extreme views do not have any place in the Federal 
procurement process. So for that I applaud Senator Murkowski 
for the legislation she introduced last week that would prevent 
third-party certification for seafood from playing a role in 
the Federal procurement process. And, as we'll hear from the 
National Fisheries Institute today, there's a strong case to be 
made that if a fishery is managed by NOAA, under the Magnuson-
Stevens Act or some other state equivalent, it should 
automatically be considered sustainable. For those who do not 
agree with this position, I would ask them then why should we 
even federally manage these fisheries at all?
    Finally, I'd be interested to hear from the GSA on whether 
or not through this executive order issued by the president, 
they were required to consider the increase costs of third-
party certification in the Federal procurement process. Because 
after all, in this time of record deficits with yet another 
debate around the corner on things like our Nation's debt 
limit, I would think there'd be a higher priority on lowering 
government spending rather than bowing to the views of a few at 
the expense of the many.
    So I thank you, Mr. Chairman, for your leadership and for 
holding this hearing.
    Senator Begich. Thank you very much. Let me see if--Senator 
Nelson, did you have any opening that you would like to give 
and----

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Just a quick comment, Mr. Chairman.
    One of the reasons why we passed, 2 years ago, the Restore 
Act for the Gulf of Mexico is to give--it will not help you in 
the Alaskan waters, but it clearly will for the Gulf--provide 
money so that NOAA can do the updates in the research of what 
is the fishery stock.
    Problem in the past on both our Atlantic and our Gulf, has 
been that the data is so outdated, they can't make an 
intelligent decision about whether or not a stock ought to be 
fished because the data is so, so many years earlier. That will 
help in our waters.
    Now we also have a problem of pirate fishing, where illegal 
taking of fish impacts the fisheries and the fishermen. And so 
I'm interested to hear what the folks here are going tell us on 
the negative effect of pirate fishing on our commercial fishing 
industries.
    Thank you, Mr. Chairman.
    Senator Begich. Thank you very much, Senator Nelson.
    Senator Heinrich, do you have anything?
    Let me ask the first two witnesses then--Mr. Rauch and then 
Mr. Blue--if you could come to the table. We really appreciate 
you being here. I think you get the sense of the concern that 
we have.
    And obviously, I want to echo what Senator Rubio did say at 
the beginning and that is, you know, if we have a Magnuson-
Stevens Act which is designed to manage our fisheries to 
sustainable levels and those that reach those sustainable 
criteria, then, in my view, that is the ultimate certification 
versus some third-party group determining what is sustainable 
when, in reality, that's what we do every day here.
    So I appreciate your willingness to come here to the 
testify--to testify and I'd like to--what I'll do is I will 
start--if that's OK, Mr. Rauch--I'll start with you and then 
I'll go to Mr. Blue. And then we'll open for a round of 5-
minute questions from members.
    Please.

      STATEMENT OF SAMUEL D. RAUCH III, ACTING ASSISTANT 
  ADMINISTRATOR, NATIONAL MARINE FISHERIES SERVICE, NATIONAL 
  OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF 
                            COMMERCE

    Mr. Rauch. Good morning, Chairman Begich, Ranking Member 
Rubio and members of the Committee. Thank you for the 
opportunity to testify before you today. My name is Sam Rauch. 
I am the Acting Assistant Administrator for NOAA's National 
Marine Fisheries Service.
    The Fisheries management process, established under the 
Magnuson-Stevens Act, has established the United States as a 
recognized global leader in responsibly managed fisheries and 
sustainable seafood. In the U.S., we managed to Maximum 
Sustainable Yield, which makes sustainability our standard. In 
addition, every Magnuson-Stevens Act fishery complies with the 
Marine Mammal Protection Act, the Endangered Species Act and 
the National Environmental Policy Act. As a result, our 
domestic fisheries are among the most sustainably managed in 
the world, taking into account target catch, bycatch and other 
ecosystem impacts.
    As such, we are also a model for other nations. In 2008, 
the Fisheries Center at the University of British Columbia 
spearheaded an extensive analysis of the most active fishing 
countries in the world. The U.S. ranked number two overall out 
of 53 countries, second only to Norway, which manages 
substantially fewer stocks.
    In the U.S., we manage 446 stocks and stock complexes under 
46 different fishery management plans that are monitored to 
ensure their effectiveness and adjusted as needed. Fishery 
management plans are dynamic, science-based strategies 
developed through a highly participatory and public process. 
This process and system is successful.
    In 2000--since 2000, we have rebuilt 34 stocks and the 
number of stocks evict overfishing and the number of overfished 
stocks are at an all-time low.
    The U.S. model of fisheries management does not have an 
end-point. Rather, it is a science-based, public, and 
transparent process designed to prevent and stop overfishing. 
It's based on continuous monitoring and enforcement.
    Unfortunately, the stability of our fisheries and the 
livelihoods of U.S. fishermen are challenged every day by 
activities on the international front. For instance, pirate 
fishing is a global problem that threatens ocean ecosystems and 
impacts fisheries, food security, and coastal communities 
around the world. By dodging conservation and management 
measures, companies engaging in pirate fishing provide unfair 
competition for law-abiding fishermen and seafood industries in 
the marketplace, and can undercut the sustainability of 
international and U.S. fisheries.
    It's also important to recognize that, in the U.S., the 
commitment to and investment in stewardship and sustainability 
by our fishermen has not come without sacrifice. We need to 
build on their commitment and ensure the successes--their 
successes are rewarded in the marketplace. Despite the globally 
recognized strength of U.S. fisheries management, U.S. seafood 
is often perceived as operating under the same ineffective 
management plaguing many global--global fisheries. This is 
simply not true.
    Still, many U.S. wholesalers, processors, retailers, 
vendors and consumers are unaware of the sustainability of U.S. 
fisheries. So the agency is taking a proactive role in telling 
the story of the success and sustainability of U.S. fisheries. 
FishWatch is the website the agency uses to educate consumers 
of the responsible management of U.S. fisheries.
    FishWatch develops neutral, regularly updated information 
on seafood harveted--harvested in the U.S. and provides factual 
information about the biological and ecological status of a 
fishery to let users draw their own conclusions when making 
purchases. We continue to improve this content of FishWatch and 
explore the opportunities for expanding its reach.
    In addition, to assist sellers, the agency, at its 
discretion, issue letters in response to requests from harvest 
sector groups on whether a particular fishery is sustainably 
managed based on the Magnuson-Stevens Act's national standards. 
In those letters, we highlight the fact that, in the U.S., we 
have virtually eliminated overfishing and rebuilding--and are 
rebuilding overfished stocks to sustainable levels in all 
federally-managed fisheries.
    And, last year, we asked our Marine Fisheries Advisory 
Committee to conduct a policy study of whether the agency's 
role in seafood certification should go beyond this status quo. 
MAFAC has been seeking input from buyers and sellers of seafood 
and gathering information from existing certification 
organizations to see what an appropriate role for NMFS would 
and should be.
    Perspectives span widely, so far, ranging from a desire for 
the Federal Government to remain uninvolved to requests for 
NMFS to regulate the use of sustainability in the same or 
similar way that U.S. Department of Agriculture regulates the 
term organic. Different options are being evaluated and a 
report is due next month.
    In summary, achieving sustainability in U.S. Marine 
Fisheries is a continuous process. To maintain our role as a 
world leader in fisheries management, we use the best available 
science and apply adaptive management strategies subject to 
public accountability and enforcement. We want to ensure that 
our fishermen and fishing industries are rewarded for their 
investment in and commitment to the participations process.
    Thank you, again, for the opportunity to discuss the 
sustainability of U.S. fisheries under the Magnuson Act and I 
welcome your questions.
    Senator Begich. Thank you very much for your testimony.
    [The prepared statement of Mr. Rauch follows:]

      Prepared Statement of Samuel D. Rauch III, Acting Assistant 
Administrator, National Marine Fisheries Service, National Oceanic and 
                              Atmospheric 
              Administration, U.S. Department of Commerce

Introduction
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to testify before you today. My name is Samuel D. 
Rauch and I am the Acting Assistant Administrator for the National 
Oceanic and Atmospheric Administration's (NOAA) National Marine 
Fisheries Service (NMFS) in the Department of Commerce. NMFS is 
dedicated to the stewardship of living marine resources through 
science-based conservation and management. Much of this work occurs 
under the authority of the Magnuson-Stevens Fishery Conservation and 
Management Act (Magnuson-Stevens Act), which sets forth standards for 
conservation, management, and the sustainable use of our Nation's 
fisheries resources.
    The fisheries management process established under the Magnuson-
Stevens Act has established the United States (U.S.) as a recognized 
global leader in responsibly managed fisheries and sustainable seafood. 
My testimony today will focus on the progress we have made, together 
with our partners, in implementing the Magnuson-Stevens Act to end 
overfishing in the U.S. and ensure our Nation's fisheries are 
sustainable.

Success under the Magnuson-Stevens Act
    In the U.S., we manage to Maximum Sustainable Yield, which makes 
sustainability our standard. We manage 446 stocks and stock complexes 
under 46 fishery management plans that are monitored to ensure their 
effectiveness and adjusted as needed. Fishery management plans are 
dynamic, science-based strategies for stewardship. They are developed 
through a highly participatory and public process that ensures the 
standards of sustainability established by the Magnuson-Stevens Act are 
met, while satisfying the needs of stakeholders for access to fishery 
resources. This process and system is successful. We have rebuilt 33 
stocks since 2000. In our most recent annual report to Congress on the 
Status of Stocks, we reported that the number of stocks subject to 
overfishing and the number of overfished stocks were at an all-time 
low--for stocks with known status, 79 percent were not overfished and 
87 percent were not experiencing overfishing. Sustainable fisheries 
provide economic, social, and cultural opportunities for commercial, 
recreational, and subsistence fishermen, and serve as an economic 
engine for fishing-related businesses and coastal communities. The 
quantity and value of commercial U.S. wild-caught fisheries was up in 
2011 while recreational catch remained stable. U.S. commercial 
fishermen landed 9.9 billion pounds of seafood valued at $5.3 billion 
in 2011, which reflects an increase of 1.6 billion pounds (20 percent) 
and $827 million (18 percent) over 2010 figures. 2011 saw the highest 
landings volume since 1997 and highest value in nominal terms ever 
recorded.\1\
---------------------------------------------------------------------------
    \1\ National Marine Fisheries Service. 2012. Fisheries Economics of 
the United States, 2011. U.S. Dept. Commerce, NOAA Tech. Memo. NMFS-F/
SPO-118, 175p. Available at: https://www.st.nmfs.noaa.gov/st5/
publication/index
---------------------------------------------------------------------------
    The seafood industry--harvesters, seafood processors and dealers, 
seafood wholesalers and seafood retailers, including imports and 
multiplier effects--generated $129 billion in sales impacts and $37 
billion in income impacts, and supported 1.2 million jobs in 2011. 
Recreational fishing generated $70 billion in sales impacts, $21 
billion in income impacts, and supported 455,000 jobs in 2011. Jobs 
supported by commercial businesses held steady from the previous year, 
while jobs generated by the recreational fishing industry represented a 
40 percent increase over 2010.\2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    This success did not happen overnight. Our Nation's journey toward 
sustainable fisheries has evolved over the past 37 years, starting in 
earnest when Congress first passed the Magnuson-Stevens Act. With that 
visionary law and the public process of accountability it established, 
Congress set a legislative standard for U.S. fisheries that led to the 
level of sustainability we see in our fisheries today. The Magnuson-
Stevens Act galvanized the commitment of the U.S. to conservation and 
management of our fisheries that has evolved into the dynamic, 
adaptable process currently at work.
    We are also a model for other nations. In 2008, the Fisheries 
Centre at the University of British Columbia spearheaded an extensive 
analysis of the most active fishing countries in the world.\3\ They 
evaluated the published and unpublished literature, and probed expert 
opinion to answer questions about adherence to Article 7 of the United 
Nation's Food and Agriculture Organization's Code of Conduct for 
Responsible Fisheries, which covers fisheries management. The purpose 
of the Code of Conduct is to facilitate comprehensive and balanced 
development of fisheries and aquaculture, encompassing the long-term 
sustainable utilization of fishery resources in harmony with the 
environment and the use of capture and aquaculture practices that are 
not harmful to ecosystems, resources or their quality. The U.S. ranked 
number 2 overall out of 53 countries, second only to Norway, which 
manages substantially fewer stocks than the U.S.: 15 stocks of marine 
fish, 4 stocks of shellfish, and 5 aquaculture stocks.
---------------------------------------------------------------------------
    \3\ Pitcher, T.J., Pramod, G., Kalikoski, D. and Short, K. 2008. 
Safe Conduct? Twelve Years Fishing under the. UN Code. WWF, Gland, 
Switzerland. 66pp.
---------------------------------------------------------------------------
The National Standards for Conservation and Management
    The U.S. model of fisheries management I've described does not have 
an end-point. Rather, it is a science-based, public, and transparent 
process designed to prevent and stop overfishing. It is based on 
continuous monitoring and enforcement. Since 1976 when Congress first 
passed the Magnuson-Stevens Act, through the most recent 
reauthorization of the Act in 2007, the National Standards for 
Conservation and Management have been the statutory benchmarks for 
responsible management and sustainable fisheries in the U.S. Fisheries 
meeting these standards have successfully undergone the public process 
and accountability procedures established by Congress for stewardship 
of our Nation's fisheries resources. The 2007 reauthorization of the 
Magnuson-Stevens Act provided a clear mandate, new authority, and new 
tools to achieve the goal of sustainable fisheries within measurable 
timeframes. Notable among these were the requirements for annual catch 
limits and accountability measures to prevent, respond to, and end 
overfishing. These are among the strictest standards in the world, and 
our approach is being emulated by other countries.
    The Magnuson-Stevens Act created a unique, highly participatory 
management structure centered on the eight Regional Fishery Management 
Councils to meet these sustainability goals. This structure ensures 
that input and decisions about how to manage U.S. fisheries develops 
through a ``bottom up'' process that includes fishermen, other fishery 
stakeholders, affected States, tribal governments, and the Federal 
Government.
    Our progress in achieving the goal of sustainable fisheries is 
founded on the principle that management is based on sound science. 
National Standard 2 of the Magnuson-Stevens Act mandates that all 
fisheries conservation and management measures must be based upon ``the 
best scientific information available.'' NMFS management targets are 
set through science-based standards, and our extensive science program 
includes well-integrated data collection and cooperative research 
programs that feed into the process for setting these targets. This 
has, in turn, led to improved productivity and sustainability of 
fisheries and fishery-dependent businesses.
    In addition to the 10 National Standards, under which each 
federally managed fishery must operate, every Magnuson-Stevens Act 
fishery complies with the protection and conservation requirements of 
the Marine Mammal Protection Act and the Endangered Species Act, and 
are managed using the holistic environmental planning requirements of 
the National Environmental Policy Act. The result: domestic fisheries 
that are among the most sustainably managed in the world, taking into 
account target catch, bycatch, and other ecosystem impacts.

IUU Fishing is a Global Problem
    The stability of our fisheries and the livelihoods of U.S. 
fishermen are challenged every day by activities on the international 
front. For instance, illegal, unreported, and unregulated fishing, also 
called IUU or pirate fishing, is a global problem that threatens ocean 
ecosystems and impacts fisheries, food security, and coastal 
communities around the world. Experts estimate that the global value of 
economic losses from IUU fishing range between $10 billion and $23.5 
billion annually, representing between 11 and 26 million tons.\4\ By 
dodging conservation and management measures, companies engaging in IUU 
fishing cut corners and lower their operating costs. As a result, their 
illegally caught products provide unfair competition for law-abiding 
fishermen and seafood industries in the marketplace, and can undercut 
the sustainability of international and U.S. fisheries. NMFS is working 
to ensure that high demand for seafood does not create incentives for 
illegal fishing activity. Working in partnership with other Federal 
agencies, foreign governments and entities, international 
organizations, non-government organizations, and the private sector is 
crucial to effectively combating IUU fishing.
---------------------------------------------------------------------------
    \4\ MRAG and Fisheries Ecosystems Restoration Research, Fisheries 
Centre, University of British Columbia, 2008. The Global Extent of 
Illegal Fishing. Available at: http://www.mrag.co.uk/Documents/
ExtentGlobalIllegalFishing.pdf.
---------------------------------------------------------------------------
Recognizing the Sacrifices and Commitment of U.S. Fishermen
    In the U.S., our fishermen's commitment to and investment in 
stewardship and sustainable resources has not come without sacrifice. 
We need to build on their commitment and ensure these successes are 
rewarded in the marketplace. Despite the globally recognized strength 
of U.S. fisheries management, U.S. seafood is often perceived as 
operating under the same ineffective management plaguing many global 
fisheries. This is simply not true.
    Moreover, many U.S. wholesalers, processors, retailers, vendors, 
and consumers are unaware of the sustainability of U.S. fisheries. The 
agency is taking a proactive role in telling the story of the success 
of U.S. fisheries, using a variety of approaches to highlight the 
value, quality, and sustainability of U.S. harvested and farmed 
seafood. FishWatch is the Internet-based informational platform the 
agency uses to educate consumers on the responsible management of U.S. 
fisheries under the Magnuson-Stevens Act and the dynamic, science-based 
process behind sustainability. FishWatch delivers neutral, regularly 
updated information on seafood harvested in the U.S. The page 
introduces consumers to the dynamic process of sustainably managing 
living resources in an ever-changing ocean environment. This tool also 
provides factual information about the biological and ecological status 
of a fishery and lets users draw their own conclusions relative to 
satisfying a purchasing standard, based on science provided by NMFS. We 
continue to improve the content of FishWatch and explore opportunities 
for expanding its reach.
    To assist sellers, the agency, at its discretion, issues 
declarative public statements in the form of letters in response to 
requests from harvest sector groups on whether a particular fishery is 
``sustainably managed'' based on the Magnuson-Stevens Act National 
Standards. In those letters, we highlight the fact that, in the U.S., 
we have virtually eliminated overfishing and are rebuilding overfished 
stocks to sustainable levels in all federally managed fisheries.
    And, last year, we asked the Marine Fisheries Advisory Committee 
(MAFAC) to conduct a policy study of whether the agency's role in 
seafood certification should go beyond this status quo. MAFAC has been 
seeking input from buyers and sellers of seafood and gathering 
information from existing certification organizations to see what an 
appropriate role for NMFS would be. One of the objectives is to collect 
information from stakeholders who are directly involved in the 
purchasing of seafood for restaurants, supermarkets, and other retail, 
food service, and institutions to get their views on certification and 
the preferred role of the Federal Government. Perspectives span widely 
so far, ranging from a desire for the Federal Government to remain 
uninvolved to requests for NMFS to regulate the use of 
``sustainability'' in the same or similar way the U.S. Department of 
Agriculture regulates the term ``organic.'' Different options are being 
evaluated including the relative benefits and costs, and whether 
taxpayers or the industry should bear them. The MAFAC report is due 
next month.

Conclusion
    Achieving sustainability in U.S. marine fisheries is a continuous 
process governed by congressionally defined National Standards. To 
maintain our role as a world leader in fisheries management, we use the 
best available science and apply adaptive management strategies subject 
to public accountability and enforce those strategies. We want to 
ensure that our fishermen and fishing industries are rewarded for their 
investment in and commitment to participation in this process. Thank 
you again for the opportunity to discuss the sustainability of U.S. 
fisheries under the Magnuson-Stevens Act.

    Senator Begich. Mr. Blue.

       STATEMENT OF DARREN BLUE, ASSISTANT COMMISSIONER,

          OFFICE OF FACILITIES MANAGEMENT AND SERVICES

          PROGRAMS, PUBLIC BUILDINGS SERVICE, GENERAL

                    SERVICES ADMINISTRATION

    Mr. Blue. Good morning, Chairman Begich, Ranking Member 
Rubio and other members of the Subcommittee. My name is Darren 
Blue. I am the Assistant Commissioner for Facilities Management 
within GSA's Public Building Service.
    I appreciate being invited here today to discuss GSA's role 
in developing guidelines for healthy and sustainable food 
services within Federal facilities.
    First, I'd like to establish GSA's view that U.S.-managed 
fisheries do not require third-party certification to 
demonstrate responsible practices. GSA has worked with HHS, 
NOAA and other agencies to revise our health and sustainability 
guidelines for Federal concessions and vending operations to 
ensure that they provide absolute clarity on this matter.
    Chairman Begich, I'm pleased to report that in the days 
since we provided you with our written statement, GSA and HHS 
have finalized the revised guidelines and they no longer 
reference a third-party certification requirement.
    I'd like to provide some background on how we developed the 
original guidelines. From 2009 to 2011, GSA and HHS jointly 
developed the guidelines with a working group that included 
health and sustainability experts from Federal agencies. GSA 
and HHS co-released these guidelines in March 2011. NOAA did 
not participate in the development of the original guidelines, 
but GSA and HHS have since been working with NOAA to develop 
the now published revised guidelines.
    As written, the original guidelines were designed to make 
healthy choices more accessible and appealing while serving as 
a practical guide for vendors crafting proposals to provide 
concessions or vending services within Federal facilities. Our 
intent was to broaden, not to restrict, choices.
    GSA worked extensively with private industry in developing 
these guidelines. In October 2009, prior to beginning our 
partnership with HHS, GSA released a request for information to 
gain valuable feedback and insight from concessions and 
environmental stakeholders on wellness and sustainability 
practices in food service delivery and concessions contracting.
    Some of the responses suggested the idea of third-party 
sustainable fishing certification programs as a guide for--for 
responsible seafood procurement. GSA confirmed the 
recommendations generated through the RFI process with industry 
experts and our partner Federal agencies. As a result, we 
developed guidelines that cited a pair of third-party entities 
for sustainable certification.
    Specifically, the guidelines encouraged vendors to refer to 
the Monterey Bay Aquarium and Marine Stewardship Council or 
other equivalent systems when developing proposals.
    GSA and HHS intended the third-party groups cited in the 
guidelines to be helpful examples for vendors, not eliminating 
factors. We now understand that the references have caused some 
confusion. GSA and HHS have worked with NOAA to develop the 
revisions consistent with our intent to issue helpful, 
inclusive guidelines that reflect current Federal Fisheries 
Management policy. We have finalized these revised guidelines 
and they no longer include references to third-party 
certification systems.
    Thank you for inviting me to appear before you today. Given 
GSA's role, in supporting sustainable workplaces, we look 
forward to continuing this dialogue and we appreciate the 
Subcommittee's oversight on this issue. I am honored to take 
your questions.
    [The prepared statement of Mr. Blue follows:]

 Prepared Statement of Darren Blue, Assistant Commissioner, Office of 
     Facilities Management and Services Programs, Public Buildings 
                Service, General Services Administration

Introduction
    Good morning Chairman Begich, Ranking Member Rubio, and members of 
the Subcommittee. I am Darren Blue, Assistant Commissioner for 
Facilities Management and Services Programs in GSA's Public Buildings 
Service. I appreciate being invited here today to discuss GSA's role in 
developing guidelines for healthy and sustainable food services in 
Federal facilities.
    Today I will speak to the GSA's support of health and 
sustainability policies and practices within our inventory of Federal 
office space.
    First and foremost, I'd like to establish GSA's view that U.S.-
managed fisheries do not require third-party certification to 
demonstrate responsible practices. GSA is working with the Department 
of Health and Human Services (HHS), the National Oceanic and 
Atmospheric Administration (NOAA), and other agencies to revise our 
Health and Sustainability Guidelines for Federal Concessions and 
Vending Operations to ensure they provide absolute clarity on this 
matter.

Development of GSA-HHS Health and Sustainability Guidelines for Federal 
        Concessions and Vending Operations
    In 2009, President Obama issued Executive Order 13514, ``Federal 
Leadership in Environmental, Energy, and Economic Performance,'' 
directing Federal agencies to leverage acquisitions to encourage 
markets for sustainable products and services. As the Federal 
Government's landlord, GSA is well positioned to drive change by 
supporting sustainability in Federal facilities and encouraging health 
and wellness among Federal employees.
    From 2009 to 2011, GSA and HHS jointly developed the Health and 
Sustainability Guidelines with a working group that included health and 
sustainability experts from several Federal agencies. GSA and HHS co-
released the Guidelines in March 2011. NOAA did not participate in the 
development of the original Guidelines, but GSA and HHS have since been 
working with NOAA to develop revisions.
    We designed the Guidelines to make healthy choices more accessible 
and appealing. As written, they serve as a practical guide and resource 
for vendors crafting proposals to provide concessions or vending 
services in Federal facilities. Our intent was to broaden choices, not 
restrict choices.
    GSA worked extensively with private industry in developing the 
Guidelines. In October 2009, prior to beginning our partnership with 
HHS, GSA released a Request for Information to gain valuable feedback 
and insight from concessions and environmental stakeholders on wellness 
and sustainability practices in food service delivery and concessions 
contracting. Some of the responses suggested the idea of third-party 
sustainable fishing certification programs as a guide for responsible 
seafood procurement.
    GSA confirmed the recommendations generated through the RFI 
process, and during a subsequent industry roundtable with industry 
experts and our other Federal agency partners, we developed Guidelines 
that cited a pair of third-party entities for sustainability 
certification. Specifically, the guidelines encouraged vendors to refer 
to the Monterey Bay Aquarium and the Marine Stewardship Council or 
other equivalent systems when developing proposals.
    GSA and HHS intended the third-party groups cited in the Guidelines 
to be helpful examples for vendors, not eliminating factors. We now 
understand that these references have caused some confusion. GSA and 
HHS are now working with NOAA to develop revisions consistent with our 
intent to issue helpful, inclusive Guidelines that reflect Federal 
fisheries management policy and practices. We expect to release the 
revised Guidelines in the coming weeks, and GSA anticipates that they 
will not include references to third-party certification systems.
Conclusion
    Thank you for inviting me to appear before you today. Given GSA's 
role in supporting sustainable workplaces and the health and wellness 
of Federal employees across the country, we look forward to continuing 
this dialogue and updating the Subcommittee on the issuance of updated 
Guidelines. I am pleased to take your questions.

    Senator Begich. Thank you very much, Mr. Blue, and I will 
have some for you in a moment. But first, thank you for the 
announcement. We appreciate it and we'll--I'll have some 
further follow-up here in a second. First, Mr. Rauch--I say Mr. 
Rauch, but it's Mr.----
    Mr. Rauch. Rauch.
    Senator Begich. Rauch. OK. I have a friend that has the 
exact same spelling, that's why--Rauch.
    Let me ask you--and I was again pleased to hear Mr. Blue 
consulted with NOAA, GSA. Can you tell me how your agency 
interacts with GSA in these regulation rewrites and kind of 
give me a sense of how your engagement----
    Mr. Rauch. As Mr. Blue said, we were not originally 
involved in the process. For the past few months, we have been 
in consultation with GSA working with them on the revision and 
I think we are excited about working with GSA more in the 
future as we continue to monitor this active process. I think 
it's a partnership that is--is going to grow, but we were not 
originally involved in that----
    Senator Begich. Were you aware when GSA was developing 
their guidelines, were you guy--were you folks aware that they 
were doing it and did--there was just no engagement from you, 
or were you not aware of that?
    Mr. Rauch. I was not aware. We were not aware.
    Senator Begich. OK.
    Let me ask you the broader step. As you know, we're in the 
reauthorization of the Magnuson-Stevens Act. At this time, 
we're starting hearings and we're doing listening sessions. It 
seems, you know, and I--and I understand these--like MSC, 
they're mad at me and I get that. They're mad at Alaska, I get 
that. You know, they don't like the fact that we don't want to 
use their certification because, honestly, they charge a lot of 
money and I'm not sure what the full value is. And there's 
inconsistency. We have different organizations. Monterey Bay is 
another one, and we can kind of go through the list. Doesn't it 
make sen--doesn't it make sense that as we re-draft and tweak 
the Magnuson-Stevens Act and Reauthorization Act, we--if 
fisheries meet the sustainability level by our standards and 
they rebuild stocks and they're sustainable--we'd classify 
them--isn't that the ultimate test of sustainability rather 
than these third-party NGOs.
    Why would they trump everything we do, or should they?
    Mr. Rauch. Well first, let me agree with your statement 
that we--we are required to manage to sustainability. When 
people ask me, why is it sustainable, I can tell them why. It 
is a transparent process that is adaptive. It's not a point in 
time you have to have a system that will constantly evaluate 
the fishery and adjust as appropriate. That's what we have with 
the Federal system. That's what the State of Alaska has for 
salmon.
    So we would--I would agree with you that federally-managed 
and in certain cases, state-managed fisheries, are the pinnacle 
of sustainability. That being said, private industries can 
market their product as they see fit in this country under 
certain laws and the Federal Government. I currently do not 
have the authority to weigh in that balance. I can articulate 
that----
    Senator Begich. I understand that, but in your testimony 
you had indicated that there were, for example, times when 
industry comes to you and they ask for a letter of probably a 
certain type of fish stock, I'm assuming.
    Mr. Rauch. Yes.
    Senator Begich. And is it sustainable--or, how do you 
declare and you respond? Correct?
    Mr. Rauch. Correct.
    Senator Begich. So in an indirect way, I don't want to call 
out certification, but you are identifying which stocks are 
sustainable by actions that you can show by scientific 
evidence, not just in that moment in time, but over time. 
Right?
    Mr. Rauch. Correct.
    Senator Begich. And so if in the Magnuson-Stevens Act--I 
get that, you know, private sectoring, go get the Good 
Housekeeping seal and all that and stuff, but the consumers, 
they demand more and more what their product is; where it comes 
from. They want to at least understand it. They don't 
necessarily want us to restrict the purchase of it because they 
want those choices and I totally agree with that, but doesn't 
it make sense if you're already doing some letters that just 
making it more clear in the legislation or reauthorization that 
when that request is made and you say it, then it is 
sustainable. Now there are some stocks that someone might send 
a letter to or ask you and you might say, well, they're not 
sustainable yet. They are in a rebuilding status; right? That 
maybe one of the situations that might occur.
    Mr. Rauch. Well we would argue that even a rebuilding 
fishery is sustainable because they catch that we allow----
    Senator Begich. That's right, because you have a scientific 
level of catch.
    Mr. Rauch. Right.
    And I want to be respectful toward the two Senators to your 
side, because Red Snapper is in, technically, rebuilding mode 
and we would argue that it is very sustainable and you can have 
harvest and sale of that and people should be eating Red 
Snapper.
    Senator Begich. Right. And long-term rebuilding.
    Mr. Rauch. Yes.
    Senator Begich. OK.
    Let me pause you, because my time is about to run out. I 
want to make sure everyone has time here. Mr. Blue, first--
always give you the pause in before I kind of give you a little 
push here.
    Thank you for the announcement today. Timing is everything. 
We appreciate that more than you can imagine. But honestly, it 
shouldn't have taken this hearing or as well as letters that 
we've sent and conversations been out in the press on this 
issue.
    How did GSA fail in this effort to connect with Federal 
agencies that manage fisheries when you're developing standards 
for our contractors to purchase, or our agencies, to purchase 
fisheries that are sustainable? How did that happen? I mean it 
just----
    Mr. Blue. Thank you, Mr. Chairman.
    Senator Begich. And I don't want you know, I want to move 
forward, but I want to understand this, because this is a huge 
issue that has caused a huge stir, as you can imagine, my state 
especially, I'm sure, and my friends from Florida in the sense 
of what is sustainable now. How do you define it? So how did 
that happen?
    Mr. Blue. Thank you, Mr. Chairman. We share the concern of 
the Subcommittee; we've reviewed our policy process and our 
interagency coordination process. The fact that NOAA was not 
coordinated during the development of these guidelines. They 
were not policy, they were guidelines, intended to be helpful--
was an oversight on our part. We've recognized that and we are 
in the process of correcting our interagency coordination with 
partner agencies for the issuance of such guidelines in the 
future.
    Senator Begich. Let me ask--how will you--and again, I--the 
guideline, with this revision, is important because you've 
taken out the third-party certification reference in any form 
and as well as making it clear.
    How will you make sure that the agencies that do the 
contracted--maybe the Park Service, or maybe any other agency 
that is doing contracted services--understand when they write 
these RFPs, this is the standard that they should use? How are 
you doing that now to make sure, as we know, and I think I've 
just heard the Park Services now can follow your guideline 
which is also good news we hear today. So--but tell me how 
you're going to ensure that happens, because, I mean, I can 
tell you how they know it's happening now because we've made it 
very public. And I'm sure they read the papers and realize, oh, 
my gosh, what's this all about. Now they're doing it because 
you've changed the guidelines. But how are we going to make 
sure every agency understands these guidelines for contracting 
of their services?
    Mr. Blue. Just so I understand the question, you mean 
getting the word out about the----
    Senator Begich. Yes.
    Mr. Blue [continuing]. Changed guidelines?
    Senator Begich. Yes.
    So they don't put into their RFPs suddenly third-party 
certification requirements because that's--they remember from 
the old RFPs or the guidelines. How are they going to know what 
the new guidelines are and make sure that they follow them?
    Mr. Blue. It's important to note that they--the third-party 
certification, they were not requirements, but they were 
reference material for the vendors as they were crafting their 
proposals.
    Senator Begich. Right.
    Mr. Blue. But we can make it, and will make clear, through 
various channels that we have, as the leader in the Federal 
acquisition workforce to Federal departments and agencies what 
the new guidelines say. We can also make it clear to our vendor 
community, when they submit their proposals that these 
guidelines have been changed.
    Senator Begich. OK. Let me pause there and I'll turn to 
Senator Rubio for his questions.
    Senator Rubio. Well, Mr. Blue, in Executive Order 13514, 
which from now on that's the one I'm talking about when I'm 
asking you about it, were you required to take into account the 
economic costs of the regulations?
    Mr. Blue. Thank you, Senator Rubio.
    I cannot speak to the original intent given to the team 
that developed the guidelines. However, I can--I can display 
the appreciation that we now have based on the Subcommittee's 
concerns to take into account the economic----
    Senator Rubio. But you can't--you don't know if there was 
any sort of economic or employment impact taken into account as 
the guidelines were being produced?
    Mr. Blue. I am not aware of any economic impact that was 
discussed as the guidelines were being produced.
    Senator Rubio. OK.
    So as far as you know, no one looked at what impact is this 
going to have on people who are out there working in this 
industry?
    Mr. Blue. As far as I know, that's correct.
    Senator Rubio. OK.
    Which seafood or fishing industry representatives were 
consulted as this was developed?
    Mr. Blue. We--as mentioned in my statement, we had an RFI 
and received numerous responses. We would like to take it, for 
the record, to submit all of those participants in that RFI 
process and also the list of industry roundtable participants.
    Senator Rubio. So, for the record I'd like--we'd like to 
see the list of both the industry representatives, but also the 
environmental stakeholders, do you know, off the top of your 
head, who are the environmental stakeholders that weighed in?
    Mr. Blue. Not off the top of my head; however, we'll make 
sure that that list is inclusive.
    Senator Rubio. Do you know what other activities the GSA 
has been conducting as a result of that executive order?
    Mr. Blue. I do not, Senator.
    Senator Rubio. OK.
    Can I get an answer to that as well, at some point, for the 
record after the hearing?
    Mr. Blue. Absolutely.
    [The information follows:]

                       U.S. General Services Administration
                                   Washington, DC, December 6, 2013
Hon. Marco Rubio,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Science, Commerce, and Transportation,
United States Senate,
Washington, DC.

Dear Senator Rubio:

    Thank you for your interest in sustainable fisheries. This is a 
follow up to the hearing held by the U.S. Senate Subcommittee on 
Oceans, Atmosphere, Fisheries, and Coast Guard on Sept 24, 2013, ``The 
Role of Certification in Rewarding Sustainable Fishing''.
    During the hearing you requested a list of seafood or fishing 
industry representatives who were consulted during the development of 
the guidelines on sustainable fisheries. Enclosed is a list of those 
roundtable participants.
    If you have any additional questions or concerns, please feel free 
to contact me at (202) 501-0563.
            Sincerely,
                                            Lisa A. Austin,
             GSA Office of Congressional and Intergovernmental Affairs.
    Enclosure

                     Enclosure: Roundtable Attendees
------------------------------------------------------------------------
                                Industry
-------------------------------------------------------------------------
               Title                     Company/Agency/Organization
------------------------------------------------------------------------
Sr. Director of Nutrition Program    Aramark
 Development
------------------------------------------------------------------------
Director of Business Development     Aramark
------------------------------------------------------------------------
Vice President Business Development  Aramark
------------------------------------------------------------------------
Director of Reporting, Corporate     Aramark
 Social Responsibility
------------------------------------------------------------------------
Vice President--Nutrition &          Compass Group
 Wellness
------------------------------------------------------------------------
Eastern Division President           Eurest Dining Services
------------------------------------------------------------------------
Regional Vice President              Eurest Dining Services
------------------------------------------------------------------------
District Manager                     FAME Food Management Service
------------------------------------------------------------------------
Executive Director                   Green Restaurant Association
------------------------------------------------------------------------
Corporate Executive Chef             Guest Services, Inc
------------------------------------------------------------------------
Division Executive Chef              Guest Services, Inc
------------------------------------------------------------------------
Corporate Director,Systems and       Guest Services, Inc
 Standards
------------------------------------------------------------------------
Senior Vice President                I.L. Creations
------------------------------------------------------------------------
Vice President of Procurement        I.L. Creations
------------------------------------------------------------------------
Nutrition and Wellness Program       I.L. Creations
 Manager
------------------------------------------------------------------------
Director of Organizational           I.L. Creations
 Development
------------------------------------------------------------------------
Manager of Communications and IT     I.L. Creations
------------------------------------------------------------------------
Senior Associate                     McManis & Monsalve Associates
------------------------------------------------------------------------
Wellness Consultant                  Plated Concepts
------------------------------------------------------------------------
Vice President of Operations         Sodexo
------------------------------------------------------------------------
Senior Vice President-Marketing and  Southern Foodservice Management
 Administration
------------------------------------------------------------------------
Senior Vice President--Operations    Southern Foodservice Management
------------------------------------------------------------------------
Corporate Services Manager           Southern Foodservice Management
------------------------------------------------------------------------


------------------------------------------------------------------------
                               Government
-------------------------------------------------------------------------
               Title                     Company/ Agency/Organization
------------------------------------------------------------------------
Facility Services Director           Department of Education
------------------------------------------------------------------------
Facility A Management Services       Department of Education
 Director
------------------------------------------------------------------------
Agency Representative                Department of Education
------------------------------------------------------------------------
Deputy Assistant Secretary, Human    Department of Interior
 Capital,
Performance and Partnerships
------------------------------------------------------------------------
Senior Executive                     Department of Labor
------------------------------------------------------------------------
Deputy Asst Secretary                Health and Human Services
------------------------------------------------------------------------
Deputy Regional Commissioner         General Services Administration
------------------------------------------------------------------------
Regional Concessions Specialist,     General Services Administration
 NCR
------------------------------------------------------------------------
Health and Wellness Specialist       General Services Administration
------------------------------------------------------------------------
Assistant Commissioner, FMSP         General Services Administration
------------------------------------------------------------------------
Health and Wellness Specialist/      General Services Administration
 Registered Dietician
------------------------------------------------------------------------
Acting Occupancy Administration      General Services Administration
 Director
------------------------------------------------------------------------
Regional Concessions Specialist, R6  General Services Administration
------------------------------------------------------------------------
Industry Relations Team              General Services Administration
------------------------------------------------------------------------
Industry Relations Team              General Services Administration
------------------------------------------------------------------------
Industry Relations Team              General Services Administration
------------------------------------------------------------------------
Concessions Program Manager          General Services Administration
------------------------------------------------------------------------
Registered Dietician                 USDA Center for Nutrition Policy
                                      and Promotion
------------------------------------------------------------------------

    Additionally, the following companies or organizations submitted an 
official response to the November 2009 RFI.

------------------------------------------------------------------------

-------------------------------------------------------------------------
Aramark
------------------------------------------------------------------------
Compass Group
------------------------------------------------------------------------
DART Container Corporation
------------------------------------------------------------------------
FAME Corporation
------------------------------------------------------------------------
Green Seal
------------------------------------------------------------------------
Guest Services
------------------------------------------------------------------------
IL Creations
------------------------------------------------------------------------
Sodexo
------------------------------------------------------------------------
Southern Food Service
------------------------------------------------------------------------
Valley Services
------------------------------------------------------------------------

    The following companies or organizations submitted feedback and 
input to GSA through various industry outreach vehicles. This input was 
unofficial and submitted via e-mail during meetings and conferences. 
This list is not inclusive of all the input we received over the last 
four years, but it represents the major organizations that contributed 
to the shaping of the Guidelines.

------------------------------------------------------------------------

-------------------------------------------------------------------------
Canteen Services
------------------------------------------------------------------------
Centers for Disease Control and Prevention
------------------------------------------------------------------------
Cornyn Fasano Group
------------------------------------------------------------------------
Green Seal
------------------------------------------------------------------------
National Institutes of Health
------------------------------------------------------------------------
National Restaurant Association
------------------------------------------------------------------------
Public Health Service
------------------------------------------------------------------------
USDA
------------------------------------------------------------------------
Veterans Health Administration
------------------------------------------------------------------------


    Senator Rubio. Thank you.
    And then--Mr. Rauch, right?
    Am I saying that right? I missed the clarification.
    Mr. Rauch. I will answer to whatever you call me.
    [Laughter.]
    Senator Rubio. OK.
    Well what do you want me to call you?
    Mr. Rubio. Rauch.
    Senator Rubio. Ra--I'm sorry.
    Mr. Rauch. Rauch.
    Senator Rubio. Rauch, OK.
    Senator Begich. I said Rauch; he corrected me.
    [Laughter.]
    Senator Rubio. Rauch.
    Senator Begich. But if you want us to call you something 
else, just let us know. We're flexible here.
    Senator Rubio. Your eminence, let me ask you----
    [Laughter.]
    Senator Rubio. I think you've answered this before, but 
just for the record, were you or anyone at NOAA aware of the 
GSA's health and sustainability guidelines before they were 
issued?
    Mr. Rauch. I was not aware. I do not believe the National 
Marine Fisheries Services were aware. I do not believe that 
anyone else in NOAA was aware.
    Senator Rubio. OK.
    And again, if, in fact, you learn that someone was aware, 
you would clarify that for the record after the hearing?
    Mr. Rauch. If we learn that, yes.
    Senator Rubio. OK.
    That's my questions. Thank you.
    Senator Begich. Thank you very much.
    Let me go to Senator Nelson.
    Senator Nelson. The pirate fishing.
    Senator Begich. Can I interrupt you for just one second?
    Senator Nelson. Certainly.
    Senator Begich. I want to say thank you for calling it 
pirate fishing. I have spent four and a half years; people kept 
calling IUU, blah, blah, blah. No one was sure what it was. 
Pirate fishing is theft from the oceans.
    Thank you, Mr. Nelson.
    [Laughter.]
    Senator Begich. I get very excited about that definition.
    Senator Rubio. Down in Florida, we know what pirates are.
    [Laughter.]
    Senator Begich. Good point.
    Senator Nelson. OK.
    How are we going to eliminate pirate fishing?
    Mr. Rauch. Thank you, Senator Nelson.
    Pirate fishing is a difficult problem to deal with because 
it is, in large measure, allowed. It's an international issue 
and so our tools for dealing with it are more limited than 
dealing with sustainable fisheries in the United States.
    We engage in a number of forums currently through our 
international forum to try and encourage our international 
partners to better manage and control the fishing fleets that 
arise out of their ports. We are engaged with the international 
law enforcement community to try to better deal with wildlife 
trafficking and pirate fishing as a form of wildlife 
trafficking. We are currently the Vice Chair of the Interpol 
working group on wildlife trafficking because of this issue.
    We are aware that Congress has a number of bills. Senator 
Begich's bill being one, on pirate fishing, which we are 
working to help with that. But it is a difficult issue. It's 
hard to get at this because fisheries is a very lucrative 
business and the United States is a very lucrative market.
    So we--we struggle at times with dealing with these foreign 
issues, but we do have an enforcement program on that. The 
President just issued, in July, an Executive Order on wildlife 
trafficking; creating a wildlife trafficking task force, which 
we are a part of, that we are trying to make sure that illegal 
fishing is appropriately considered illegal wildlife 
trafficking.
    So it is a difficult issue and we are addressing it on a 
number of fronts in conjunction with the State Department, 
trade representatives and others.
    Senator Nelson. Well--now, we're talking about U.S. waters. 
So, why--well what--what other tools do you need?
    Mr. Rauch. In U.S. waters I think we have the tools that we 
need. We have an active enforcement program that deals with 
U.S. fishermen who violate the laws and there are not many of 
them but a few on occasion do. So we have an active enforcement 
program there that I think----
    Senator Nelson. How about non-U.S.?
    Mr. Rauch. We have a program that deals with incursions by 
foreign fishermen----
    Senator Nelson. Describe that.
    Mr. Rauch. We--on occasion, a foreign fishing vessel will 
come into U.S. waters without authority to do so. When that 
happens, the Coast Guard--to the extent that we are aware of 
that--the Coast Guard will find those vessels, stop the--
interdict those vessels, the vessels are often forfeited and 
the crew are repatriated to their country of origin.
    So we work with the Coast Guard and State Department when 
those kind of events happen. They don't happen all that 
frequently, though they used to be much more frequent. We do 
that. We also work with the governments of the originating 
vessels to try to get them to control their activities.
    So there is an established process in the United States for 
dealing with foreign incursion into our waters. It doesn't 
happen very often, but it does happen on occasion.
    Senator Nelson. Do we have enough Coast Guard?
    Mr. Rauch. I can't speak to that. Our partnership with the 
Coast Guard seems adequate for these purposes. I can't speak 
for the Coast Guard and what other missions that they have, but 
we have a long partnership with the Coast Guard. We recognize 
that both they and us are dealing with our resource constraints 
as every other Federal agency, but I think that we try to 
prioritize the missions that are important to all of us.
    Senator Nelson. Other than contacting the countries outside 
of U.S. waters, describe what are the tools that you're using.
    Mr. Rauch. So outside of the U.S. waters we are working 
with the international law enforcement agency, Interpol, on 
wildlife trafficking.
    As I said, we're the Vice Chair of the Interpol working 
group on that. So there's information sharing that we use with 
other countries. The Coast Guard does occasionally go outside 
of U.S. waters to assist with non-flagged vessels. A true 
pirate vessel is a vessel that doesn't have a flag of any 
country, although we consider it --the term broader in the 
fishing context.
    So we do work with other countries to deal with that when 
we find a vessel on the high seas. We also are trying to work 
with other countries when illegal fishing is goes on in their 
waters but the product is coming into the United States. Our 
fishermen, who have taken all these sacrifices, often have to 
compete on the same grocery store shelf with the fishermen that 
is it, a product that was harvested illegally. And that is a 
difficult thing for our fishermen to deal with. So we deal with 
it both in the law enforcement context and through a domestic 
negotiation context.
    Senator Nelson. And, can you identify that fish on the 
grocery store shelves to prevent it from ever getting there in 
the first place?
    Mr. Rauch. In some fisheries we can. In some--in many 
fisheries we cannot.
    Senator Nelson. How do you do that?
    Mr. Rauch. Some fisheries have traceability requirements in 
which they trace it from the vessel all the way to the market, 
the grocery store. Other fisheries, we require our seafood 
inspection and the customs--the Customs and Border Patrol to 
interdict illegal product coming in and there is enormous 
amount of product coming in and we can only sample a certain 
substance of that.
    Senator Nelson. What fishery traces it all the way from the 
boat into the shore?
    Mr. Rauch. So I believe the Chilean sea bass does that. I 
believe there are certain tuna stocks in the Western Pacific 
that do that as well. I could get you a list of all those that 
do. Not many--not very many do that. In addition to our 
government-sponsored, a number of U.S. fishing industries like 
this there's a Wild Gulf Shrimp fishery which does it on its 
own without government involvement. They will--as a marketing 
tool, they have a system where they can trace from their boat 
to the plate and that they will market. So that when a consumer 
wants to buy it they can scan the barcode and they can find the 
boat the day it was caught. We don't run that system but the 
industry does on its own.
    Senator Nelson. And that's--the shrimping industry does 
that? It's----
    Mr. Rauch. Wild Gulf Shrimp.
    And I believe there's a similar system in Alaska for one of 
the products up there.
    Senator Nelson. Is that a similar system in the Atlantic 
shrimp?
    Mr. Rauch. I'm not aware.
    These are privately-run marketing or--privately-run 
enterprises.
    Senator Nelson. I see. Thank you, Mr. Rauch.
    Senator Begich. Thank you very much.
    And if I can add to that, we have a piece of legislation 
ending on--called Safe Seafood Bill which does exactly what 
you're talking about, because customers today want really to 
understand what they're buying, where it's coming from and I 
know in Alaska we have over $500 million worth of Russian crab 
they call Alaska crab, and it's impacted our industry 
dramatically in a negative way.
    So you're absolutely right. So we do have a bill pending on 
that. We also have two other bills that passed out of this 
committee we are very excited about, S. 269 and S. 267, which 
is all about pirate fishing and in honor of Senator Inouye who 
led that charge when I got here before. So we're--hopefully, 
maybe Senator Nelson will put a little push on you who know we 
need to push on to get this to the table. So we'll look forward 
to that.
    Senator Heinrich.

              STATEMENT OF HON. MARTIN HEINRICH, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Chairman. I look forward to 
working with both of you on pirate fishing. I will bring up the 
fact that my kids, the other day, were using my iPhone to 
translate things in the pirate language. We should try that in 
the Committee sometime.
    [Laughter.]
    Senator Heinrich. I want to talk to Mr. Rauch just about 
some definitions to kind of get a handle on why I think there 
is a consumer value in third-party certification. And why, if 
everything is by definition sustainable, then you see why 
third-party certification exists in the first place. And we 
define or you define sustainable in such a way that even a 
rebuilding stock is sustainable. And that may well be true for 
the purpose of--of harvesting numbers, but I think for the 
purpose of the average consumer, if they're looking at Western 
Atlantic bluefin tuna, and they believe stocks to be down 80 
percent from where they were historically or any other heavily 
impacted species that is at the bottom of that rebuilding 
curve, they don't feel like that is a wise choice, a 
sustainable choice, even if you by our definition it is 
sustainable. So how do you reconcile that and do you have 
something on FishWatch where people can see that what the 
actual health of the stock overall in gross terms is, versus 
the idea that, OK, hopefully we'll have a little more of these 
fish next year than we had last year?
    Mr. Rauch. Yes. So, on FishWatch we do try to present the 
full picture of the health of the stock. The idea is to let the 
consumer choose for themselves what they do or do not want to 
buy. And you're absolutely correct. Different consumers will 
approach purchasing decisions in different ways and they will 
value different things.
    The role of the National Fishery Services is just to 
provide the information, not to make those choices for them or 
to recommend one way or the other. So we do present what's 
called the data from the stock assessment. For all of these 
stocks, we have stock assessments which outline not only the 
current health of the stock, but also the trajectory. So you 
can look over time and see whether--where it's been caught, 
where it is going and where we predict it to go. So that's 
what's on our FishWatch.
    You are correct that we would view a rebuilding fishery as 
sustainable in that the population is not declining, the 
population is growing. Red Snapper is a very good example. The 
population has been far exceeding its rebuilding targets. It is 
growing bigger than we ever expected. In that situation, a 
rebuilding stock, you can--you can have harvest on that stock 
and it's sustainable. It's not true for every fishery.
    In the United States, we have a process that we can 
guarantee that we're going to respond and manage the 
sustainable levels. That's not true everywhere else. So there 
is a difference, but when you buy into sustainability, you're 
buying into the process under which it's managed. And you 
either support that process or not, because fish stocks are 
going to vary in any given year. There are going to be more or 
less, and you can't ever predict exactly how many fish there 
are going to be, but you can have some assurance that the 
government or the regulating industry is going to take that 
into account and set a scientifically-based quota.
    Senator Heinrich. And, when you mention scientifically-
based quotas, one of the things that comes to mind is when I 
was--I had the unfortunate experience of having to take almost 
30 hours of math in college. And one of the things that we 
learned about were these equations that define a species, you 
know, take what happened with the passenger pigeon and it's 
happened to certain cod stocks and other things where you have 
an absolute line where as long as you're above that line, the 
fish stock will grow and you will slowly but surely move your 
way back to a healthy stock at a much higher level. But if you 
dip below that line you can, actually, the equation sort of 
flips and you go to zero. In other words, next year there will 
be less and the next year there will be less until there's 
nothing left based on--how do you incorporate those kinds of 
models into your ability to make sure stock never reaches that 
point?
    Mr. Rauch. Well, we do manage to ensure the stocks never 
reach that point. Our sustain--our level of overfished fishing 
is far above the level in which we would have an endangered 
species concern. The--it is conceivable you could fish a 
species all the way to extinction if you didn't manage it well. 
And so we ensure----
    Senator Heinrich. Or at least functional extinction where 
you have----
    Mr. Rauch. Functional extinction. Exactly.
    Senator Heinrich. You know, you still have the fish but it 
never regains its prominence in the ecosystem and as a fishable 
large scale part of that system.
    Mr. Rauch. Right.
    So we're managing to economic sustainability. We're 
managing to ensure that the fishery not only to--that the fish 
still exist, but they exist in marketable, harvestable 
quantities which is a much higher level.
    So those are--all those equations are built into our stock 
assessments; they are built into our targets for what we are 
trying to achieve. Now we the vast majority of those 446 stocks 
we manage are well over those lines. There are a number of them 
in the tens that are under rebuilding plans that we are 
concerned about. But we--but none of them are in any danger of 
an endangered species act listing.
    Senator Heinrich. OK. Thank you, Mr. Rauch.
    Senator Begich. Thank you very much, Senator.
    Next, Senator Markey, thank you for attending. And I know 
this probably is a good subject, because you introduced a 
companion bill on some legislation. So now you're here. So you 
get to be part of the bill here.
    So, welcome and, please, you have--we have five minutes and 
then we do have a vote, just to make sure people know. I think 
it's still scheduled for 11:45. We'll wait to see and then 
we'll have another panel coming up right after this.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. And I 
just want to associate myself with your comments on the 
importance of being able to trace fish from bait to the plate. 
And, as you were saying, I have been able to introduce the Safe 
Seafood Act in the House and in the Senate. And I think it's 
important for us to be able to move that forward to protect 
American fishermen from being exploited by this rampant fraud 
which is taking place with the mislabeling of fish in a way 
that undermines the good-faith effort of American fishermen to 
provide high-quality food for Americans.
    And let me begin with Mr. Blue. The U.S. Atlantic's spiny 
dogfish population is certified as sustainable under the Marine 
Stewardship Council. Yet prices remain extremely low, less than 
15 cents a pound. Dogfish are tasty, sustainable, abundant and 
yet our Massachusetts fishermen can't make a living catching 
them.
    Isn't it correct that dogfish qualify as sustainable under 
the purchasing guidelines? Is that--in that case, why isn't the 
U.S. Government buying more dogfish?
    Mr. Blue. Thank you, Senator.
    I am, honestly, going to have to take that for the record 
and come back to you. I don't have the data on how much or any 
dogfish that's been purchased.
    Senator Markey. Well, it's very important for us in 
Massachusetts, in New England, to have that issue addressed. 
Dogfish are clearly something that can play a big role in the 
revitalization of the Massachusetts and New England fishermen.
    Mr. Rauch, times are very hard in New England fisheries. 
The entire Massachusetts delegation is working together to 
encourage the Small Business Administration to help our 
fishermen, and we're looking at ways to market other stocks 
like dogfish. What is your view on the New England fisheries? 
How can we preserve that 300-year history of fishing?
    Mr. Rauch. Thank you, Senator.
    I think some aspects of the New England fisheries are quite 
vibrant. The scallop industry is the most--one of the most 
lucrative fisheries in the country. But, it is clear that the 
groundfish portion of that fishery is facing difficult times.
    There are less fish. The Gulf of Maine was the warmest on 
record last year. That seems to be having an effect on the 
juvenile cod, which is the iconic species of groundfish, and 
the cod just aren't there. We have cut the quota, but they're 
still not catching even the reduced quota that we've cut. So 
they're having difficult times. We are aware of that.
    We have tried to do a number of things to try to compensate 
for the lack of fish. We have made--there are a number of 
healthy stocks that we have tried to make more accessible; 
raising the limits on healthy stocks, allowing change to the 
regulatory burdens so that they can better access that.
    Some of the problems are outside of the fisheries direct 
regulatory control. So we've tried to host discussions with 
Labor, Small Business Administration. For instance, on October 
1, we are hosting a webinar with the Small Business 
Administration and agriculture department to help work through 
this loan issue with them so that fishermen are better able and 
know how to apply for these small business loans and those kind 
of issues. We've talked with the Labor Department about things 
that they may be able to do to bring on there.
    This is a very difficult issue and we are very concerned 
about the future of that fishing industry. And we're trying to 
do all that we can to assist in this process. The biggest 
problem; however, is there are no fish. And, until we can solve 
that problem, we're going to have this long term problem with 
the fishermen.
    Senator Markey. So which healthy stocks have you raised the 
limits for?
    Mr. Rauch. We can get you the exact answer, but I believe 
we have raised the limits for pollock, for red fish, for 
dogfish and others.
    Senator Markey. OK.
    And, on the issue of the Gulf of Maine being the warmest 
recorded temperatures----
    Mr. Rauch. Yes.
    Senator Markey.--in history. Can you just briefly elaborate 
on that.
    Mr. Rauch. So----
    Senator Markey. And the impact that it has on the juvenile 
cod----
    Mr. Rauch. And so, my understanding is that the--the 
surface temperature of the Gulf of Maine, they've measured it 
for the last 150 years, and last year was the warmest in the 
summer that it has ever been. We have seen--we used to believe 
that there was a very direct correlation between fishing 
pressure and stocks. So that if you cut--if you cut fishing, 
you lower the quota, the stocks will recover. The fishermen for 
cod have been facing lower and lower quotas throughout the 
2000s. We expected the cod to recover and, in 2008, we saw 
signs of juvenile cod which we thought were going to recover, 
but they never grew up into big cod. We don't know what 
happened to them.
    One theory, which is the subject of a peer review study 
came out, is that because of the changing temperature in the 
Gulf of Maine that changed the phytoplankton composition that 
they eat and they're better--and they--they're subject to more 
mortality to get the new kind of phytoplankton.
    So the temperature change may have caused the cod to be 
less survivable in the Gulf of Maine, which would explain why 
the juvenile cod never grew up. So it may be a contributing 
factor to the decline in cod that we are seeing. We can't 
predict conclusively, but there was a peer-reviewed study that 
last summer that indicated that is a likely contributing 
factor.
    Senator Markey. OK, great. Thank you. Thank you, Mr. 
Chairman.
    Mr. Chairman. Thank you very much.
    And to the panels, and first, Senator Markey, thank you for 
your last question, because I know one of the issues that we 
are struggling with here in Congress is the issue of 
acknowledging, by some in Congress, that actually climate 
change is occurring. It's impacting--warming of the waters, 
acidification of the waters--it's impacting industry all across 
this country. That is dramatic job creator and important for 
our food supply and food chain and yet it is impacting us. And 
that last comment was a very important point to remind people 
that all the great science that we're doing is fantastic, but 
there is something else happening that we have to be aware of, 
and I know that you've been a leader, in the House side 
especially and a leader here in the Senate, on this issue. So--
and Alaska is ground zero when it comes to climate change 
issues. I know when you say climate change some bolt of 
lightning strikes you around here by some, but you can argue 
into science all you want, but you just gave an additional fact 
and I'm sure in Alaska waters we would give additional facts of 
where there are impacts. And you know them.
    And so we have to ensure that as we work down the road on 
fishery issues and these broad issues, there's the broader 
issue of climate change. We have to acknowledge it, figure out 
the right approach. We may differ on some of our approaches, 
but we believe in the same thing. That it's happening. And we 
have to find that common ground and get there because we are 
seeing impacts right now in our fisheries.
    So, thank you for that last comment that you made. That was 
very important.
    Senator Markey. If I may----
    Senator Begich. Sure.
    Senator Markey. Mr. Chairman, yes. And again, it's called 
Cape Cod.
    [Laughter.]
    Senator Markey. And the sacred cod is the symbol of the 
State of Massachusetts.
    Senator Begich. Yes.
    Senator Markey. It hangs in the State legislature. So this 
testimony helps us to understand a little bit about what's 
going on. And we have to explore, more fully, because if you're 
linking the warming of the waters to historically warm waters 
to a decline in juvenile cod then, again, that goes right to 
the heart of the iconic symbol of the state.
    So I thank you, Mr. Chairman, very much.
    Senator Begich. Thank you very much. To the panel, thank 
you very much.
    Mr. Blue, especially thank you, for--I know you were 
thinking, why do I have to come to this, it's going to be not 
fun. But your announcement this morning is very helpful.
    As we know--also the Parks Services contacted us today, 
also indicated to us clearly that they're going to follow this 
guideline which is one of the agencies that kind of stirred 
this whole issue up in a way that was not the right approach 
that they were taking.
    So thank you for your new guidelines. Thank you for your 
follow-up you will be doing. And we will, as you can imagine as 
an oversight committee, working with you to make sure that 
happens and how that response is from agencies.
    Mr. Rauch, thank you for all your testimony and all the 
information you've laid on the table. Thank you very much.
    We'll now have the next panel come forward. Panel two; I'll 
start introducing them as they come forward. We'll have: 
Stefanie Moreland, Special Assistant, Office of Governor Sean 
Parnell, State of Alaska; Mr. Jeffrey Rice, Senior Director, 
Sustainability, Wal-Mart Stores; Mr. Michael Montelongo, Senior 
Vice President for Public Policy Corporate Affairs with Sodexo; 
and Mr. John Connelly, President of National Fisheries 
Institute.
    We'll take people in that order, so folks know. We 
appreciate your attendance here today.
    Again, we'll have to vote at 11:45, but we'll continue the 
meeting as long as I can afford--I become the last vote of the 
tally.
    If folks can grab their chairs and come forward.
    Stef, good to see you. And Stefanie, we're going to start 
with you once everyone is settled.
    Again, thank you all very much for your attendance.
    I see four and I have five names on my list. No, I have 
four. What am I thinking? Bad eyes. See what happens when you 
get over 50. It's all going downhill.
    Stefanie, thank you very much for being here. Thank you for 
representing the State of Alaska. And, thank you for your 
participation down at a couple of events we've been at in 
Alaska on some issues around fisheries.
    So let me start with you and then we'll just kind of go 
right down the row, if that's OK.

       STATEMENT OF STEFANIE MORELAND, FISHERIES POLICY 
  ADVISOR TO GOVERNOR SEAN PARNELL, ON BEHALF OF THE STATE OF 
                             ALASKA

    Ms. Moreland. Thank you and good morning, Chairman Begich, 
and distinguished members of the Committee.
    My name is Stefanie Moreland. I am the Policy Advisor for 
Fisheries to Alaska Governor Sean Parnell. And I'm honored to 
be here today representing the State of Alaska and the 63,000 
hardworking men and women in our seafood industry, and the many 
communities that depend upon our fishery resources.
    I am here to share Alaska's experience with sustainable 
fisheries management and our concerns over seafood 
certification undermining good governance and public processes 
established by the State of Alaska and by Congress. I also 
support your attention to the need for Congressional direction 
to Federal agencies to support responsibly managed U.S. 
fisheries through their purchasing policies.
    In Alaska, we have strong state and Federal fisheries 
management programs. Sustainability is not a trend or a market 
ploy, it's a way of life and law of the land. The fishing 
industry is our largest private sector employer. And as you 
know, Alaska mandates sustainability of fisheries and its 
constitution.
    We put fish first in our management practices. This means 
fishermen are often called upon to make short-term sacrifices 
for the long-term health of the resource. In our Federal 
fisheries, no species of Alaska seafood is listed as 
overfished. And the North Pacific Fishery Management Council 
has never set a catch limit above the level recommended by 
science advisors.
    In many cases, Alaska has pioneered management initiatives 
that have been adapted nationwide. The State of Alaska manages 
salmon to ensure a stock not only survives but thrives. Our 
state's commitment to the sustainability of Alaska salmon 
resources codified in regulation, and in our sustainable salmon 
fisheries policy and companion policy for escapement goals. Our 
policies and management plans are backed by investment in 
science and research and management staff across the state with 
authority to act on the best available information.
    Sustainability is also mandated by U.S. law in the 
Magnuson-Stevens Fishery Conservation and Management Act, or 
MSA. The most recent comprehensive MSA amendments mandated the 
adherence to scientific catch limits, applying nationwide 
policies that had been in place in the North Pacific region for 
decades.
    Both Alaska and the U.S. have been held up as models of 
responsible management and have some of the best managed 
fisheries in the world. This globally-recognized success has 
been achieved through transparent, science-based, and 
participatory fisheries governance structures; not in response 
to a private sustainability standard.
    Alaska operates in a global marketplace, exporting fish 
products to over a hundred countries. Despite our decades-old 
track record, a recent movement has gained momentum though 
requires third-party certification of sustainability as a 
precursor or qualification to maintain market access. We 
believe this is unnecessary for Alaska or U.S. fisheries, but 
recognize the reality that certification has become important 
in some markets to provide outside independent verification of 
sustainability.
    Just over 10 years ago, Alaska salmon was the first major 
fishery certified by the private London-based Marine 
Stewardship Council, or MSC. The MSC touted Alaska salmon as a 
pioneer in sustainability and best available choice in seafood. 
We believe this high praise is still well deserved. But over 
the years, we found that eco-label movement has become more 
about brand protection and restricting market access than 
sustainability. In 2011, Alaska's leading salmon producers 
decided to withdraw from the MSC program. They saw the Alaska 
brand being eroded and replaced by a generic eco-label.
    Also, the MSC model allows for conditional certification, 
providing equivalent market access and credentials for lower-
achieving fisheries. Responsibly-managed fisheries are 
disadvantaged by this approach and consumers are unable to 
distinguish a truly sustainable fishery from one that has been 
granted a heavily-conditioned certification.
    As a result, Alaska, in collaboration with other high-
achieving fisheries, advanced an alternative certification 
model, robust enough to satisfy any responsibly corporate 
social responsibility policy. This alternative, called 
Responsible Fisheries Management, or RFM Certification Program, 
is ISO accredited. It's the only one to achieve this standard.
    No single eco-label label should serve, or should--should 
strive to serve as the only litmus test for sustainability. 
This undermines the U.S. system of fisheries governance and 
Alaska's world-class fisheries management program.
    Finally, we were troubled to recently learn that some U.S. 
Federal agencies have relied upon MSC certification as an 
indicator of sustainable--of seafood sustainability in their 
policies regarding procurement and sale of seafood. This 
disadvantages Alaska and allows other seafood from around the 
country. We understand that Senator Murkowski has recently 
introduced legislation to address the issue and to address the 
current misguided Federal policies and request your attention 
to the issue.
    We will continue our efforts to ensure that American and 
international consumers have access to the quality sustainable 
seafood that we produce and the information to make informed 
choice. Thank you.
    [The prepared statement of Ms. Moreland follows:]

 Prepared Statement of Stefanie Moreland, Fisheries Policy Advisor to 
        Governor Sean Parnell, on behalf of the State of Alaska

    Good morning, Chairman Begich, Ranking Member Rubio, and 
distinguished members of the Committee.
    My name is Stefanie Moreland, and I am the Policy Advisor for 
Fisheries to Alaska Governor Sean Parnell. I am honored to be here 
today representing the State of Alaska, the 63,000 hard-working men and 
women in our seafood industry, and the many communities that depend 
upon our fishery resources.
    To Alaskans across our state, fish are not only an economically and 
socially significant source of food, but a vital and integral mainstay 
to our economy as a renewable natural resource. The fishing industry is 
our largest private sector employer, providing gainful employment to 
tens of thousands of residents and non-residents alike each year in 
both the harvesting and processing sectors. Alaska is home to four of 
the Nation's top ten fishing ports when measured by volume of landings, 
and six of the top ten when measured by value.\1\ If Alaska were a 
nation, it would rank among the top ten in the world for seafood 
production. The seafood industry is second only to the Alaska oil 
industry in generating State revenue. At the same time, fish support 
customary and traditional subsistence needs for Alaska Natives, 
supplement the food needs of thousands of Alaskans, and provide 
recreational opportunities for Alaskans as well as for hundreds of 
thousands of Americans who visit our state, bringing income to 
businesses and communities of all sizes. It is no exaggeration to say 
that fishing touches the life of every single Alaskan.
---------------------------------------------------------------------------
    \1\ State of Alaska, Department of Labor and Workforce Development, 
Alaska's Fishermen: Harvests, Earnings, and Their Other Jobs, by Jack 
Cannon and Josh Warren (Alaska Economic Trends, November 2012), 4.
---------------------------------------------------------------------------
    Alaska is home to fisheries managed by the State and Federal 
governments, jointly. The Alaska Department of Fish and Game, under 
regulations crafted by the Alaska Board of Fisheries, manages about 750 
distinct fisheries within State waters that extend to three miles from 
Alaska's shoreline. The National Marine Fisheries Service (NMFS), a 
branch of the National Oceanic and Atmospheric Administration, manages 
fisheries outside of State waters and within the 200 mile U.S. 
exclusive economic zone (EEZ), which comprises roughly 842,000 square 
nautical miles around Alaska. The North Pacific Fisheries Management 
Council is the regulatory body tasked with creating the programs, 
conservation, and fishery objectives that NMFS implements.
    In Alaska, sustainability is not a trend, a movement, a fad, a 
marketing ploy, or a label; it is a way of life and the law of the 
land. It is an industry and scientific imperative. Alaska is the only 
state which mandates the sustainability of fisheries in its 
Constitution, which states in Article 8, Section 4 that ``Fish . . . 
and all other replenishable resources belonging to the state shall be 
utilized, developed, and maintained on the sustained yield principle. . 
. .'' We put fish first in our management practices, and fishermen are 
often called upon to make short term sacrifices for the long term 
health of the resource. During the last two summers, for example, 
multiple fisheries in Upper Cook Inlet, targeting a variety of species, 
endured severe restrictions in order to ensure adequate spawning 
escapement for one specific salmon species migrating through the area 
to spawn in streams. No species of Alaska seafood is listed as over-
fished and the North Pacific Fishery Management Council has never set a 
catch limit above the level recommended by our scientists. In many 
cases, Alaska has pioneered management initiatives that have been 
adopted nationwide.
    Alaska's first Department of Fisheries was created in 1949--a full 
decade before Alaska gained statehood. The goal of the Territorial 
Legislature in instituting the Department was to ``overcome the present 
depleted condition of the salmon runs,'' strengthen Alaskan control of 
Alaskan fisheries, and coordinate with Federal fisheries management.\2\ 
Challenges at the time included salmon stocks devastated by the use of 
fish traps, which essentially created local monopolies over fish runs, 
and foreign encroachment into Alaskan fishing waters. Shortly 
thereafter, in accordance with a vote of the people, fish traps were 
removed across the state.
---------------------------------------------------------------------------
    \2\ State of Alaska, Department of Fish and Game, Sustaining 
Alaska's Fisheries: Fifty Years of Statehood, by Bob King (January 
2009), 6.
---------------------------------------------------------------------------
    The Department worked in ensuing years to protect the fishing 
rights of Alaskans and gain a stronger voice for individual fishermen 
in the creation of regulations over their livelihoods. Alaska's 
independent ability to manage its own fisheries was seen as 
inextricably linked to another issue under debate--statehood. Bill 
Egan, our first State Governor, stated shortly after the passage of 
Alaska statehood, ``it is a requirement toward remolding the shattered 
remnants of a once unparalleled fishery which, under distant 
bureaucratic control, has been in sharp decline for more than two 
decades. Now for the first time, Alaskans are free to exercise their 
own judgment on a course of action to rebuild this resource in the 
common good to its earlier position of eminence.'' \3\
---------------------------------------------------------------------------
    \3\ Ibid., 9.
---------------------------------------------------------------------------
    Alaska's efforts to return depleted salmon runs to sustainable 
levels centered around scientific understanding, conservation, and 
rehabilitation. In the early 1970s, salmon levels were alarmingly low, 
and a hatchery program was introduced by the State Legislature to 
augment salmon production.
    The Department manages salmon fisheries strictly to meet a stock's 
escapement goal--the number of fish needed to migrate upriver and spawn 
to ensure a stock not only survives, but thrives. This means fishermen 
are often denied the opportunity to fish if necessary to ensure 
adequate escapement and robust future yields. Alaska's efforts to 
conserve wild salmon runs paid off richly in the early 1980s, which saw 
record returns in historic Bristol Bay fisheries and on the Kuskokwim, 
and strong runs throughout other regions of the state. While salmon 
continued to dominate Alaska fisheries policy, other fisheries 
developed under State management. King crab, shrimp, herring roe, and 
other species types gained new prominence as species sought across the 
world, and the state took on the responsibility for managing these for 
sustainable yield as well. The 2013 salmon season saw the highest 
overall salmon harvest in recorded history, with a record 269 million 
salmon harvest to date in the waters off Alaska.
    Our state's commitment to the sustainability of Alaska's salmon 
resources is further codified in regulation with the policy for the 
management of sustainable salmon fisheries and the companion policy for 
statewide salmon escapement goals. The sustainable salmon fisheries 
policy was a comprehensive effort on behalf of the Alaska Department of 
Fish and Game and the Alaska Board of Fisheries, with unparalleled 
public and user group input conducted from 1996-1999. This policy was 
the first of its kind for Pacific salmon and preceded policies from 
both national and international agencies.
    The success of our management and regulatory framework as it 
pertains to the present health and vitality of Alaska's salmon resource 
is directly linked to: the health of our salmon spawning and rearing 
environments; the application of sound, responsible, conservative 
management practices; and our observation and application of lessons 
learned in other jurisdictions regarding what wild Pacific salmon need 
to sustain healthy productive populations. The aforementioned policies 
in concert offer direct instruction on all aspects of salmon life 
history, what processes must be followed if a particular salmon stock 
is challenged at maintaining sustained yield and finally, that defined 
escapement goals are the underpinning of our management responsibility.
    Sustainability is also mandated by U.S. law in the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA). With the passage of the 
MSA in 1976, the United States EEZ limit was extended to 200-miles 
offshore, and foreign overfishing was banned. The Act also created 
regional councils to oversee management of fisheries within the EEZ and 
outside of state waters, with Alaska alone constituting a single region 
due to the tremendous range and size of its fisheries. Comprehensive 
amendments in 2006 mandated adherence to scientific catch limits and 
rebuilding timeframes for overfished stocks, codifying nationwide 
policies that had been in place in the North Pacific region for 
decades.
    Both Alaska and the U.S. have been held up as models of responsible 
management and have some of the best-managed fisheries in the world. 
This globally recognized success has been achieved through a 
transparent, science-based, and participatory fisheries governance 
structure, and not because of any private, changeable environmental NGO 
sustainability standard. Recently, European Union Commissioner for 
Maritime Affairs and Fisheries, Oceans, and Seas, now faced with 
righting a failed common fishery policy in Europe, remarked that ``I 
want to pay tribute to the U.S. for their great achievements in 
managing fisheries in accordance with the best available science and 
ending overfishing. . . . The U.S. has shown us the way on 
sustainability. . . .'' \4\
---------------------------------------------------------------------------
    \4\ PECH Committee of the European Parliament, Our Common Future 
Hearing, 30 May 2012, http://europa.eu/rapid/press-release_SPEECH-12-
398_en.htm?locale=en.
---------------------------------------------------------------------------
    The Pew Charitable Trust and Ocean Conservancy just released a 
report stating ``success in managing and rebuilding America's fisheries 
ranks among the leading achievements of marine resource management in 
the world.'' \5\
---------------------------------------------------------------------------
    \5\ The Law That's Saving American Fisheries: The Magnuson-Stevens 
Fishery Conservation and Management Act. The Pew Charitable Trusts, and 
Ocean Conservancy Washington (May 6, 2013), http://
www.pewenvironment.org/news-room/reports/the-law-thats-saving-american-
fisheries-the-magnuson-stevens-fishery-conservation-and-management-act-
85899472108.
---------------------------------------------------------------------------
    Alaska operates in a global marketplace exporting fish products to 
over 100 countries. Despite our decades old track record of 
sustainable, science-based management, a recent movement has gained 
momentum that requires third-party certification of sustainability as a 
precursor or qualification to maintain market access. We believe this 
is completely unnecessary for Alaska or U.S. fisheries, but the reality 
is that certification has become important in some markets as the only 
way to provide outside verification of sustainability.
    Just over ten years ago, Alaska salmon was the first major fishery 
certified by the private London-based Marine Stewardship Council (MSC). 
The MSC touted Alaska salmon as a ``pioneer in sustainability,'' a 
``very special and iconic fishery'' and a ``best environmental choice 
in seafood.'' They stated ``Alaska's fishery management system is among 
the most comprehensive and intensive of any fishery in the world.'' \6\ 
We believe this high praise was and is still well-deserved. Alaska's 
fisheries have thrived under a system of local management and world 
class research embraced in Alaska since the formation of the first 
Department of Fisheries, and are still known today for cutting-edge 
expertise in genetics, pathology, and population abundance modeling 
that informs management decisions on a day-to-day basis during busy 
fishing seasons and in the crafting of regulations. Regulations 
pertaining to overall management schemes for all fisheries are 
developed and regularly reviewed in a process that was designed to keep 
management apolitical, public, and accessible to stakeholders. This 
management model is respected worldwide and was the original example of 
what a fishery certified by the MSC should look like.
---------------------------------------------------------------------------
    \6\ http://www.msc.org/get-certified/news/newsitem/alaska-salmon-
re-certified-for-sustainable-fishing; http://www.msc.org/track-a-
fishery/fisheries-in-the-program/in-assessment/pacific/tem
plate-fishery-in-assessment/sustainability-notes.
---------------------------------------------------------------------------
    However, over the years, we have found that the eco-label movement 
has become more about brand protection and restricting market access 
than sustainability. In 2011, Alaska's leading salmon producers decided 
to withdraw from the MSC program. They saw the Alaska brand being 
eroded and replaced by a generic eco-label. They were frustrated with 
increased fees and most of all with the fact that the conditions for 
maintaining certification were continually changing, despite the fact 
that the fishery management system has maintained the same high 
standards. This certification model effectively undermines the 
management of our authority over our fisheries governance process and 
structure by threatening to restrict access to markets based on our 
adherence to the changing standards of an entity completely unconnected 
and unaccountable to our state or nation.
    Furthermore, the MSC model allows for conditional certification, 
thus providing equivalent market access and credentials for lower-
achieving fisheries. For example, the Russian pollock fishery has just 
achieved MSC certification despite some very significant conditional 
requirements for future improvement, providing it with the same market 
credentials as the much higher-achieving Alaska pollock fishery. 
Responsibly managed fisheries are disadvantaged by this approach and 
consumers are unable to distinguish a truly sustainable fishery from 
one that has been granted heavily conditioned certification.
    As a result, Alaska, in collaboration with other high-achieving 
fisheries like those in Iceland, advanced an alternative certification 
model. We undertook this effort in order to provide a business to 
business certification that does not impart labeling fees on the 
industry and one robust enough to satisfy any reasonable Corporate 
Social Responsibility policy. This alternative, called the Responsible 
Fishery Management (RFM) certification program, is directly based on 
the United Nations (U.N.) Food and Agriculture Organization (FAO) Code 
of Conduct for Responsible Fisheries, and assesses whether or not a 
fishery is conforming to criteria and principles set forth in the 
following FAO documents:

  <bullet> The FAO Code of Conduct for Responsible Fisheries, 1995

  <bullet> The FAO Guidelines for Eco-labeling of Fish and Fishery 
        Products from Marine Capture Fisheries, 2005/2009

  <bullet> The FAO Fisheries Circular No. 917, J. Caddy, October 1996

    These guiding documents are considered the best globally acceptable 
and balanced framework for fisheries certification, and were developed 
through the U.N.'s Committee on Fisheries and a multi-stakeholder 
process which involved relevant U.N. agencies and international 
government and non-governmental organizations. The Code itself was the 
subject of a technical consultation open to the involvement of all FAO 
members, intergovernmental and non-governmental organizations, and 
interested non-FAO members, in order to gain the broadest possible 
range of stakeholder input. They are publicly owned and utilized by 
many certification schemes and fisheries managers. An International 
Organization for Standardization (ISO) accredited Certification Body 
(Global Trust) simply took the FAO documents that were created through 
a multi-stakeholder process, and put them into an auditable format.
    The RFM program has achieved ISO 65 accreditation, ensuring that it 
is an objective third-party process. ISO is a global standards setting 
organization founded in 1947 that promotes worldwide proprietary, 
industrial and commercial standards. Strong stakeholder engagement and 
access is a hallmark of ISO certification. The ISO process includes 
site visits by the Assessment Team at the validation and assessment 
stages to meet with the applicant and the fishery's scientific, 
enforcement, and management entities.
    Opportunity for independent public stakeholder input is provided 
for both during the assessment process, and on an ongoing basis 
throughout the annual surveillance audit process. The State of Alaska's 
Seafood Marketing Institute, for example, has conducted extensive 
stakeholder outreach, meetings, and publicized information online in 
order to assist the Alaska seafood industry and other interested 
stakeholders in understanding and engaging in the new certification 
process.
    In reviewing how the FAO Code of Conduct for Responsible Fisheries 
is referenced as a standard, it is clear that RFM Certification honors 
the intentions of FAO:

        The Code of Conduct for Responsible Fisheries was approved in 
        1995 by the Twenty-eighth session of the Committee on Fisheries 
        of the Food and Agriculture Organization of the United Nations 
        as a suitable basis for judging whether living aquatic 
        resources are being harvested in a way which is compatible with 
        sustainable development. . .. Which can be used for an 
        evaluation by the managers themselves or those involved in 
        certification of a fishery as `responsible' as defined under 
        the Code. (FAO Circular #917).

    In this way, RFM provides independent verification that a fishery 
is managed in accordance with these respected international norms 
agreed to by the 194 member nations of the FAO. No other fishery 
certification has achieved the ISO's rigorous, high level of 
accreditation.
    Alaska has led the way in promoting choice in seafood certification 
to ensure a monopolistic private eco-labelling scheme does not block 
market access for responsible fisheries. No single eco-label should 
serve, or should strive to serve, as the only litmus test for 
sustainability. This monopolistic situation only harms seafood 
producers, wholesalers, retailers, and consumers who deserve an 
objective evaluation of fisheries sustainability and a choice in who 
they do business with.
    As evidenced by our record salmon returns this year, Alaska's 
science-based approach to fishery management works. But despite our 
collective efforts we have experienced a restriction to market access 
due to environmental NGO pressure on global retail, foodservice, and 
seafood distributors to subscribe to only one third-party certification 
program. This undermines the U.S. system of fishery governance, and a 
world-class fisheries management system responsible for making Alaska 
renowned as the source of some of the world's best seafood. Ultimately, 
it undermines thousands of Alaskans working some of the hardest jobs, 
from those working entire days hauling crab pots or seine nets, to 
those carefully processing seafood, to the communities that live around 
the cycles of the fishing seasons.
    We were particularly troubled to learn that some U.S. Federal 
agencies have relied upon MSC certification as an indicator of seafood 
sustainability in their policies regarding procurement and sale of 
seafood on Federal property. This disadvantages Alaska and other 
seafood from around the country. We understand Senator Murkowski has 
recently introduced legislation to address these current misguided 
Federal policies and request your attention to the issue.
    While it is outside the scope of this committee, continued funding 
for the Farm Bill's Market Access Program is also important. This 
program is an essential funding source which helps us promote Alaska 
seafood and the RFM alternative certification program internationally.
    We will continue our efforts to ensure that Alaskan fishermen and 
processors have access to markets for their products and American and 
international consumers have access to the quality, sustainable seafood 
we produce along with the information to make an informed choice. Thank 
you.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Begich. Thank you very much.
    Mr. Rice.

          STATEMENT OF JEFFREY RICE, SENIOR DIRECTOR, 
             SUSTAINABILITY, WAL-MART STORES, INC.

    Mr. Rice. Chairman Begich----
    Senator Begich. Is your microphone on there?
    Mr. Rice. It is now.
    Senator Begich. There we go.
    Mr. Rice. Chairman Begich, thank you for the opportunity to 
join you today and explain the sustainability and seafood 
procurement at Wal-Mart.
    Because of the recent developments, my comments today will 
focus mostly on Alaska and our recent engagement with the 
Alaska Seafood Marketing Institute. However, we expect that the 
thoughtful process to address the issue with Alaskan salmon 
will help solve potential issues with other species and other 
fisheries.
    We understand the importance of this issue to you and 
particularly to our many customers employed in the seafood 
industry. Our customers have high expectations of us and they 
should. They expect that we will sell safe, affordable and 
healthy food and that we'll work with our suppliers to ensure 
products they provide from us are produced, man--manufactured 
and harvested responsibly.
    Let me provide a little background on Wal-Mart's strong 
commitment to sustainability. In 2005, we announced three broad 
goals toward becoming a more sustainable business. These 
include a commitment to be supplied 100 percent by renewable 
energy; to create zero waste from our operations; and to sell 
products that sustain people and the environment.
    We have made significant progress on these areas. Our 
U.S.--excuse me our U.S. stores now divert over 80 percent of 
our waste from landfill. We now receive 21 percent of our 
energy from renewable sources globally. And we've improved the 
efficiency of our U.S. truck fleet by 80 percent since 2005.
    We also have made significant progress on product 
sustainability through our partnership with the sustainability 
consortium and our development of the sustainability index. TSC 
is a university-led, science-based, multi-stakeholder 
organization that is developing tools that allow retailers and 
suppliers to understand, measure and improve the sustainability 
of their products.
    As part of this initiative, we've committed to promote 
seafood sustainability worldwide. Wal-Mart implemented a policy 
in 2006, and updated it in 2011, which requires that all fresh 
and frozen, farmed and wild-caught seafood products we sell 
meet one of the following points: To become certified by an 
independent third-party as sustainable using Marine Stewardship 
Council or Best Aquaculture Practices; to become certified by 
an independent third-party under standards that equivalently 
lead to sustainable fisheries; to be currently under assessment 
for such certification; or to be part of a credible fisheries 
improvement project or fishery management program.
    Alaskan fisheries have been meeting our sustainable seafood 
policies and have demonstrated a strong commitment to ensuring 
the viability of the fishery. We're very pleased that, over the 
past 2 years, Wal-Mart and Sam's Club have purchased well over 
50 million pounds of fresh and frozen seafood from Alaska that 
meets these commitments. And we're confident that we'll be able 
to continue to purchase seafood from Alaska that meets these 
requirements.
    Recently, the Alaska Seafood Marketing Institute engaged an 
external party to develop a new sustainability seafood 
certification called the Responsible Fisheries Management, and 
to move away Marine Stewardship Council. We respect ASMI's 
decision to take this step. Our goal is to ensure, in a 
credible way, that we're sourcing from sustainable fisheries. 
As outlined in our policy, we believe strongly that there can 
and should be multiple standards and certifications that 
demonstrate sustainable fisheries.
    We are not experts on sustainability and we are certainly 
not experts on fisheries management. Because of the emergence 
of these new certification schemes, including the ASMI 
initiated Responsible Fisheries Management Certification; we 
have asked the Sustainability Consortium to lead an open 
process to develop criteria and principles to evaluate new 
standards that are emerging. The principles and criteria 
developed through this process will allow us to know with 
confidence which standards lead to sustainable fisheries and 
will identify opportunities for improvement in those standards 
that don't.
    For standards that don't yet meet the principles and 
criteria, we're committed to working with them in good faith to 
address what gaps exist.
    We encourage ASMI and the Responsible Fisheries Management 
Program, as well as other certifications, to engage in the open 
process with TSC to develop principles and criteria to evaluate 
sustainable fisheries program. Wal-Mart expects to continue 
selling our customers Alaskan seafood for decades to come. 
After all, our goals are shared goals: To continue to provide 
customers with delicious and sustainable seafood.
    Thank you very much.
    [The prepared statement of Mr. Rice follows:]

 Prepared Statement of Jeffrey Rice, Senior Director, Sustainability, 
                         Wal-Mart Stores, Inc.

    On behalf of Wal-Mart Stores, Inc. (Walmart), thank you for the 
opportunity to join you today and talk about sustainability and seafood 
procurement at Walmart.
    We understand the importance of this issue and the impact it has on 
all of us--on our customers, suppliers, partners, and particularly our 
many Alaskan customers employed in the seafood industry.
    Our customers depend on us for safe, affordable and healthy seafood 
for their families. They love Alaskan seafood, and so do we. We plan on 
selling Alaskan seafood to our customers this year, next year, and far 
into the future.
    Our customers have high expectations of us, and they should. They 
expect that we will work together with our suppliers to ensure that all 
of the products they buy from us are produced, manufactured and 
harvested responsibly.

Sustainability at Walmart
    Walmart maintains a strong commitment to sustainability. In 2005, 
we announced three broad goals toward becoming a more sustainable 
business. These include a commitment to be supplied 100 percent by 
renewable energy; to create zero waste from our operations; and to sell 
products that sustain people and the environment.
    We have made significant progress in these areas. Our U.S. Stores 
now divert over 80 percent of their waste from landfills through 
recycling, donations and composting programs. We now receive 21 percent 
of our energy from renewable sources globally, and we've improved the 
efficiency of our U.S. truck fleet by 80 percent since 2005.
    We've also worked with suppliers to improve the sustainability of 
our products across our business. From reducing packaging in toys to 
spreading best practices in agriculture and improving energy efficiency 
in factories, we're committed to collaborating with our suppliers to 
improve the sustainability of the products we sell. We believe 
customers shouldn't have to choose between products they can afford and 
products that are good for their families and the environment.
    We have made significant progress on product sustainability through 
our partnership with The Sustainability Consortium (TSC) and our 
development of The Sustainability Index. TSC is a university-led, 
science-based, multi-stakeholder organization that is developing 
science based tools that allow retailers and suppliers to understand, 
measure and improve sustainability in their products.
    Administered by the University of Arkansas and Arizona State 
University, there are currently over 100 member organizations involved 
in TSC's work. These include retailers such as Walmart and Kroger, as 
well as restaurant chains like McDonald's and Darden, and suppliers 
like Coca Cola, Tyson Foods, Dell, and others.
    In addition, several agricultural producer groups are members of 
TSC, including the National Cattleman's Beef Association, Dairy 
Management Inc. and Cotton, Inc. TSC membership also includes over a 
dozen academic institutions, civil society organizations, and 
government agencies.
    Together, members of TSC and other invited experts take the best 
science and input to develop practical tools to inform decision makers 
and improve sustainability across the supply chain.
    These tools form the basis for Walmart's Sustainability Index, 
which allow our product buyers to evaluate how their suppliers are 
performing on sustainability, and also gives buyers and suppliers key 
recommendations for how they can work together to improve the 
sustainability of the products our customers buy. From electronics to 
shampoo, from cereal to holiday toys, TSC and the Index are helping us 
deliver on our commitment to sell products that sustain people and the 
environment.

Requirements of Fresh Seafood Suppliers
    As part of this initiative, we are committed to promoting seafood 
sustainability worldwide. Walmart implemented a policy in 2006 and 
updated it in 2011, which requires all fresh and frozen, wild and 
farmed seafood products we sell:

  <bullet> become third-party certified as sustainable using Marine 
        Stewardship Council (MSC) or Best Aquaculture Practices (BAP);

  <bullet> become third-party certified under standards that 
        equivalently lead to sustainable fisheries;

  <bullet> be currently under assessment for such certification; or

  <bullet> be part of a credible fishery improvement project (FIP) or 
        fishery management program.

    We're very pleased that over the last two years, Walmart and Sam's 
Club have purchased well over 50 million pounds of fresh and frozen 
seafood from Alaska that meets these commitments, and we're confident 
that we'll be able to continue to purchase seafood from Alaska that 
meets these requirements well into the future. After all, our goals are 
shared goals: to continue to provide our customers with delicious and 
sustainable Alaskan seafood for years to come.

Where We Have Been and Our Path Forward
    Alaskan fisheries have been meeting our sustainable seafood 
policies and have demonstrated a strong commitment to ensuring the 
viability of the fishery. Recently, the Alaska Seafood Marketing 
Institute (ASMI) engaged an external party to develop a new sustainable 
seafood standard and certification. The Alaskan seafood industry has 
also taken steps to move away from Marine Stewardship Council toward 
this new standard.
    We respect ASMI's decision to take this step. Our goal is to 
ensure, in a credible way, that we're sourcing from sustainable 
fisheries. As outlined in our policy, we believe strongly that there 
can and should be multiple standards and certifications that 
demonstrate sustainable fisheries.
    We are committed to an open and transparent dialogue with our 
suppliers and other stakeholders about the standards and policies that 
govern our sustainable sourcing programs. We are not experts on 
sustainability, however, and we are certainly not experts on fisheries 
management.
    Because of the emergence of the new certification schemes, 
including the ASMI initiated Responsible Fisheries Management 
certification, we have identified the need to engage a third-party to 
develop the principles and criteria that standards must meet to 
demonstrate that they lead to sustainable fisheries.
    To this end, we have asked The Sustainability Consortium to lead an 
open process to develop these criteria and principles that will give us 
the confidence we need that standards and certifications lead to 
sustainable fisheries. We'll work with the TSC to build these into the 
sustainability index.

Our Ask of Certification Systems (ASMI, MSC and Others)
    We will continue the dialogue with ASMI on how we meet our shared 
goal of selling sustainable Alaskan fish to our customers.
    We encourage ASMI and the Responsible Fisheries Management program, 
as well as other certifications, to engage in the open process with The 
Sustainability Consortium to develop principles and criteria to 
evaluate sustainable fisheries. ASMI has received an invitation to 
participate in a TSC workshop to develop these criteria in October. We 
hope they will attend.
    If through that process there are areas where the Responsible 
Fisheries Management certification used by ASMI can be improved, we are 
committed to working in good faith with ASMI to address those 
opportunities.
    Together, we can meet our shared goals and the expectations of our 
shared customers for sustainable fisheries. We expect to continue 
selling our customers the Alaskan seafood for decades to come.

    Senator Begich. Thank you very much.
    Next, I have Mr. Montelongo. Please.

             STATEMENT OF HON. MICHAEL MONTELONGO, 
              SENIOR VICE PRESIDENT, SODEXO, INC.

    Mr. Montelongo. Good morning, Chairman Begich.
    I am Michael Montelongo, Senior Vice President--I'm sorry. 
Excuse me. Now I think I have it on.
    [Laughter.]
    Mr. Montelongo. Excuse me.
    As I said, I'm Senior Vice President for Public Policy and 
Corporate Affairs at Sodexo and I am responsible for our 
government affairs and public policy activities at Sodexo.
    On behalf of my 125,000 colleagues who live and work in the 
U.S. and the states that you represent, I am honored to testify 
before you today on how Sodexo is playing an important role in 
marine sustainability.
    We believe sustainability impacts the quality of life for 
people every day and we'll continue to do so well into the 
future. So thank you, Mr. Chairman, for your leadership on this 
very important matter.
    Sodexo is the global leader in services that improve 
quality of life. In North America alone, our 125,000 employees 
serve more than 15 million consumers daily at 9,000 client 
sites across Canada, Mexico and the U.S., headquartered in 
Gaithersburg, Maryland, not very far from here. We are experts 
at helping our clients improve their performance and well-being 
of their people and their customers.
    As one of the largest integrated services companies in the 
world, providing more than 100 types of services, we serve a 
wide variety of customer segments including hospitals, senior 
living communities, colleges and universities, school 
districts, corporate environments, Federal Government 
facilities and military bases. At the University of Tampa, for 
example, Sodexo is helping students and administrators create a 
carbon-neutral campus; designing LEED-certified buildings and 
implementing renewal energy and water conservation strategies.
    Sodexo also cares about its local communities and ending 
childhood hunger in America. The Sodexo foundation, an 
independent charitable organization, has made more than $20 
million in grants toward this cause since its founding in 1999. 
Sodexo further supports local community development in other 
ways, including our focus on increasing locally sourced, 
community-based purchases and programs like our joint venture 
in Alaska with NANA Management Services which creates business 
and job opportunities in Native Alaskan communities.
    As a corporate leader in nutrition, health and wellness, we 
are proud to partner with First Lady Michelle Obama in her 
``Let's Move!'' campaign. In addition, as a top employer 
seeking top talent, we are also honored to partner with the 
First Lady's ``Joining Forces'' initiative to hire veterans, 
especially those returning from recent conflicts abroad.
    All this is about improving quality of life. And we believe 
that by improving the quality of life for organizations and 
people, we help our clients, their customers and the 
communities where we live and serve to grow and succeed.
    So, adopting and incorporating the best thinking about 
sustainability into our procurement practices is aligned with 
that mission. In fact, Sodexo just received a 2013 best-in-
class ranking for social and environmental and economic 
responsibility from the Dow-Jones Sustainability Indexes for 
the ninth straight year. Sodexo's Better Tomorrow Plan codifies 
our approach to sustainability. And guided by this strategic 
road map, we operate in a manner that treats sustainability not 
as a separate business offer, special program or a stand-alone 
marketing campaign, but rather as a key element woven into the 
very fabric of our business. Included in our Better Tomorrow 
Plan, is a very specific commitment by Sodexo to source 100 
percent sustainable seafood in North America by 2015.
    Sodexo's commitment to sustainable seafood purchases is 
manifest through our buying power and our reach with millions 
of individuals we serve every day. We purchase over $200 
million in seafood each year, spanning a wide variety of both 
wild caught and aquaculture fisheries. For each fishery and 
fishing community that we support, our purchasing decisions are 
chiefly guided by our customers' demands and our principles. 
While we source seafood from a number of states, Sodexo has, 
and continues to make, considerable purchases of seafood from 
the state of Alaska. In fact, in 2012 Sodexo purchased more--
more than $22 million in seafood from the last frontier state. 
That's 6 million pounds of seafood, including nearly 119 tons 
of Alaska salmon.
    It's important to note that Sodexo's expertise is not is in 
seafood certification, excuse me, seafood certification or 
fishery management practices, but in delivering the best 
quality food service to our discerning customers. For this 
reason, we consult and engage with several third-parties and 
certifying bodies to inform our strategy around sustainable 
seafood. We also work with a variety of advisory bodies to help 
us determine which species and fisheries are considered at risk 
and should be considered for controls such as certification.
    In that regard, we view our sustainability criteria--or I 
should say, we review our sustainability criteria for each 
species on an annual basis and make determinations about 
whether or not we serve those species, if they should be 
certified or if there should be other types of controls in 
place. To that end, Sodexo is very willing to consider 
alternative strategies in conjunction with other external 
organizations that help ensure our commitment to sustainability 
is based on robust science and addresses consumer demands.
    In closing, I would like to reiterate that through our 
comprehensive Better Tomorrow Plan, we at Sodexo, see 
sustainability, not as a programmatic undertaking, but as a key 
element woven into the fabric of our business and mission to 
improve the quality of life for our clients, customers and 
communities we serve. We remain committed to 100 percent 
sustainable seafood in North America by 2015.
    We clearly recognize that the way we source seafood plays 
an important role in the health of our oceans, the survival of 
our fish stocks and impacts all those we serve and the lives of 
those working in the seafood industry. Given these facts, our 
ongoing support for local fishing communities requires us to be 
responsible stewards of the nation's resources and oceans.
    Thank you again, Mr. Chairman, for your leadership on this 
important issue and we look forward to working more with you on 
this in the future. And I look forward to your questions.
    [The prepared statement of Mr. Montelongo follows:]

 Prepared Statement of Hon. Michael Montelongo, Senior Vice President, 
                              Sodexo, Inc.

Introduction
    Good morning Chairman Begich and members of the Subcommittee. I am 
Michael Montelongo, Senior Vice President for Public Policy and 
Corporate Affairs at Sodexo. I am responsible for our government 
affairs and public policy activities at Sodexo. On behalf of our 
125,000 employees who live and work in the U.S. and the states you 
represent, I am honored to testify before you today on how Sodexo is 
playing an important role in marine sustainability. While I regret that 
our subject matter expert could not be here with us today, I will do my 
best to address this esteemed committee and provide a general overview 
of our comprehensive sustainability efforts, guided by what we call the 
Better Tomorrow Plan and how it plays a role in promoting sustainable 
seafood. We believe sustainability impacts the quality of life for 
people every day, and will continue to do so well into the future, so 
thank you, Mr. Chairman for your leadership on this important matter.

About Sodexo
    Sodexo is the global leader in services that improve quality of 
life. As one of the largest integrated services companies in the world, 
providing more than 100 types of services, Sodexo touches the lives of 
75 million consumers in 80 countries every day. In North America alone, 
our 125,000 employees serve more than 15 million consumers daily at 
9,000 client sites across Canada, Mexico and all 50 states in the U.S.
    Headquartered in Gaithersburg, MD, we at Sodexo see ourselves as 
strategic partners with our clients--and we are experts at helping our 
clients improve their performance and the well-being of their people 
and their customers.
    Our range of diversified quality of life services spans facilities 
management--from building design, space planning and construction, to 
energy management and waste water treatment--and also includes 
integrated business strategy development, employee benefits and rewards 
solutions, in-home services and our traditional on-site foodservice 
operations.
    We serve a wide variety of customer segments including hospitals, 
senior living communities, colleges and universities, school districts, 
corporate environments, Federal Government facilities, and military 
bases. At the University of Tampa, for example, Sodexo is helping 
students and administrators create a carbon-neutral campus--designing 
LEED-certified buildings, implementing renewable energy and water 
conservation strategies. Similar work led by Sodexo takes place at 
thousands of the sites where we operate all over the U.S.
    Sodexo also cares about its local communities and ending childhood 
hunger in America. The company fully funds all administrative costs for 
Sodexo Foundation, an independent charitable organization that, since 
its founding in 1999, has made more than $20 million in grants toward 
this cause, mainly funded by the efforts and donations of the company, 
its employees and other stakeholders. Sodexo further supports local 
community development in other ways including our focus on increasing 
locally-sourced, community-based purchases and programs like our joint 
venture with NANA Management Services which creates business and job 
opportunities in native Alaskan communities.
    As a corporate leader in nutrition, health and wellness, we are 
proud to partner with First Lady Michelle Obama in her ``Let's Move 
Initiative.'' In addition, as a top employer seeking top talent, we are 
also honored to partner with the First Lady's ``Joining Forces 
Initiative'' to hire veterans, especially those returning from recent 
conflicts abroad.
    We believe that by improving the quality of life for organizations 
and people, we help our clients, their customers and the communities 
where we live and serve to grow and succeed.

Sodexo's Better Tomorrow Plan
    Adopting and incorporating the best thinking about sustainability 
into our procurement practices is consistent with that mission. In 
fact, Sodexo just received a 2013 best-in-class ranking for social, 
environmental, and economic responsibility from the Dow Jones 
Sustainability Indexes (DJSI) for the 9th straight year. A common theme 
in our approach to sustainability is our Better Tomorrow Plan. We 
operate in a manner that treats sustainability, not as a separate 
business offer, special program, or a stand-alone marketing campaign, 
but rather as a key element woven into the very fabric of our business. 
Included in our Better Tomorrow Plan is a very specific commitment by 
Sodexo to source 100 percent sustainable seafood in North America by 
2015.
    As seafood consumption significantly increases, Sodexo's clients 
and customers are also increasingly demanding assurances that their 
seafood is sustainable. Seafood consumption worldwide has doubled since 
1973; by 2020 it is estimated there will be an additional need of 32 
million tons. In the United States alone, per capita consumption of 
seafood has increased over 26 percent since 1980. This tremendous 
increase in seafood consumption is placing a major stress on our 
oceans' natural resources.
    Seafood is also an important component of a healthy diet. In fact, 
according to the USDA's 2010 Dietary Guidelines and MyPlate, fish and 
shellfish should be the main protein on our plates twice a week.
    The way we source this seafood has an important impact on the 
health of our oceans, the survival of our fish stocks, our clients, 
customers, and communities, as well as the livelihoods of those working 
in the seafood industry. Our ongoing support for local communities, 
including fishing communities, compels us to be better stewards of the 
oceans' resources. We know the challenge is a tremendous one that we 
cannot solve alone and are therefore committed to working with a 
variety of well-respected organizations to best define and enact our 
policies.

Sodexo's Seafood Purchasing
    Sodexo's commitment to sustainable seafood purchases is manifest 
through our buying power and our reach with the millions of individuals 
we serve each day. We purchase over $200 million in seafood each year 
spanning a wide variety of both wild-caught and aquaculture fisheries. 
For each fishery and fishing community that we support, our purchasing 
decisions are guided by our customers' demands and our principles. 
While we source seafood from a number of states, Sodexo has and 
continues to make considerable purchases of seafood from the state of 
Alaska. In fact, in 2012 Sodexo purchased more than $22 million in 
seafood from ``The Last Frontier'' state. That's 6 million pounds of 
seafood, including nearly 119 tons of Alaska Salmon.

Delivering Sustainable Seafood
    Sodexo's expertise is not in seafood certification or fishery 
management practices, but in delivering the best quality food service 
to our discerning customers. For this reason, we rely on, and engage 
with several third parties and certifying bodies to inform our strategy 
around sustainable seafood. We also work with a variety of advisory 
bodies to help us determine which species and fisheries are considered 
at risk and should be considered for controls such as certification.
    In North America we continue to advance Sodexo's global sustainable 
seafood initiative to protect our seafood supply and ocean ecosystems 
for future generations. In 2011, we removed 15 ``at risk'' species from 
our catalogues and menus. In addition, over the last two years we made 
a number of enhancements to our sustainable seafood initiative, 
including bringing new supplier partners on board. Sustainable seafood 
will continue to be a focus of our sustainability effort in North 
America and we expect to see total sustainable seafood purchases, 
including certified fish and seafood, increase significantly through 
2015.

Validating Sustainable Seafood
    As noted previously, Sodexo works with third parties and certifying 
organizations to advise us and help us meet our sustainability 
commitments. We work globally with a consortium of stakeholders to get 
the best practices and developments in the industry to better inform 
our sustainability and purchasing policies. Sodexo is a founding 
partner and has active representation on the Board of Directors of the 
recently launched Global Sustainable Seafood Initiative (GSSI). GSSI is 
a strategic alliance of businesses, government bodies and NGOs that 
work to improve clarity and transparency around the issue of 
sustainable seafood. GSSI's primary objectives aim to: (1) create 
flexibility in the use and re-combination of different standards and 
verification schemes in the different stages of the supply chain; (2) 
create flexibility in the use of different standards and verifications 
for meeting different market requirements, and (3) mobilize synergies 
among compliance standards and improve the overall standards system. We 
understand the goals of this initiative are well-aligned with the 
concerns of this subcommittee--to improve the overall system of 
standards.
    Sodexo recognizes that the needs of its clients and customers vary 
and it has always made every effort to accommodate those needs without 
straying from its sustainability objectives. We review our 
sustainability criteria for each species on an annual basis and make 
determinations about whether or not we serve those species; if they 
should be certified; or if there should be other types of controls in 
place. To that end, Sodexo is willing to consider alternative 
strategies in conjunction with other external organizations that help 
ensure our commitment to sustainability is based on robust science and 
addresses customer demands.

Closing
    In closing, I would like to reiterate that through our 
comprehensive Better Tomorrow Plan we, at Sodexo, see sustainability 
not as a programmatic undertaking, but as a key element woven into the 
fabric of our business and mission to improve the quality of daily life 
of our clients, customers, and the communities where we live and serve; 
we remain committed to sourcing 100 percent sustainable seafood in 
North America by 2015.
    We clearly recognize that the way we source seafood plays an 
important role in the health of our oceans, the survival of our fish 
stocks, and impacts all those we serve and the lives of those working 
in the seafood industry. Given these facts, our ongoing support for 
local fishing communities requires us to be responsible stewards of the 
oceans' resources. Thank you again for your leadership on this 
important issue and we look forward to working more with you on this in 
the future.

    Senator Begich. Thank you very much.
    Mr. Connelly.

            STATEMENT OF JOHN CONNELLY, PRESIDENT, 
                  NATIONAL FISHERIES INSTITUTE

    Mr. Connelly. Chairman Begich, Senator Blumenthal, the 
National Fisheries Institute, the Nation's largest seafood 
trade organization is pleased to present our thoughts on U.S. 
Government's actions on third-party seafood certification.
    Sustainability is a key component, identifies work and we 
rely on a long-term availability of seafood resources, because 
obviously no fish means no jobs in the future. Because of this 
commitment to the seafood community, I am on the boards of 
several global sustainability organizations, but for this 
testimony I speak solely as NFI.
    Fisheries management must reside with governments where the 
state, Federal or intergovernmental. The management of a common 
resource while often aided by property rights and meets the 
under painting of government oversight. And for that reasons, 
NFI is strongly a proponent of NOAA Fisheries and the council 
system.
    For market reasons, some of our members, especially those 
who export seafood, have engaged in certification programs such 
as MSC. NFI is unfamiliar with any major changes to U.S. 
fishery as a result of these certifications; however, seafood 
companies earn continued market access to American and European 
market retailers by going through steps beyond what is required 
by MSA in getting this third-party certification.
    Private sector transactions are based business decisions 
that Senator Rubio mentioned in his opening remarks. However, 
NFI is concerned when U.S. Government actions require third-
party certifications for the ten reasons outlined in our 
written testimony.
    It does appear, yesterday, that GSA modified its policies 
to reflect the preeminent role that NOAA fisheries should play 
in government procurement policy for seafood. NFI supports 
these policies and thanks all the senators that were engaged in 
helping guide that policy change.
    We strongly urge the Department of Interior and the 
National Park Service to now follow suit. NPS based their June 
guidelines on the GSA policy. And now that GSA has shifted, we 
ask NPS to publicly modify its requirements for vendors.
    We further urge DOD to make clear that it accepts NOAA 
fisheries determinations as sufficient documentation for 
sustainability. The Pentagon should make clear to its vendors, 
to Navy and Marine mess halls, Army chow lines, or the Air 
Force's fine dining establishments that they should not require 
third-party certifications to sell American fish to American 
sailors, soldiers, Marines and Airmen.
    A last point about the root cause of this situation: even 
with the change in policy, NFI remains confused about the 
singular focus of seafood sustainability. Seafood remains a 
well-managed global resource. Seafood uses less water in its 
processing and production than other protein. Seafood has a 
much better feed conversion ratio than any other protein. And 
seafood generates a much lower nutrient load on the environment 
than other proteins. So why the focus on seafood sustainability 
solely? NFI believes much of this is a communications 
challenge. The best way to address the question of NOAA and 
sustainability is for NOAA to buy a printing press and develop 
a robust Twitter account.
    [Laughter.]
    Mr. Connelly. NOAA's fishery management is generally 
excellent. That's been a common theme throughout this morning. 
Yet few in government or the public know this. The fact that 
GA--GSA, HHS, and the Park Service develop their policies with 
coordinating with NOAA suggests that NOAA is too quiet, even 
within the Federal family. This has left others to define what 
sustainability is and what it's not.
    Congress should require NOAA to develop an integrated 
communications strategy that explains, in lay terms, how the 
government manages our Nation's fisheries' resources. Part of 
that strategy should target institutional buyers of seafood. 
You and I, when we go to the grocer or restaurant, do not 
really decide among the variety of seafood options available. 
Rather, a few buyers at supermarkets decide for us. And too 
often, they have pulled seafood from their counters, under 
pressure from activist groups, even though NOAA reports the 
fish are managed sustainably. NOAA and Congress need to do a 
much better and much more aggressive job in explaining to 
stores that U.S. fish is caught sustainably.
    Most of us don't like to hear the boastful parent on the 
soccer field or the co-worker that grabs the credit. But in 
this case, it is exactly what NOAA fisheries must do. In a 
budget of close to a billion dollars, it is incumbent that NOAA 
not just continue to excel technically, but to also explain the 
good that they do. NFI appreciates the opportunity to 
communicate or share these thoughts with committee.
    [The prepared statement of Mr. Connelly follows:]

            Prepared Statement of John Connelly, President, 
                      National Fisheries Institute

    The National Fisheries Institute (NFI) is pleased to present to the 
Senate Commerce Committee Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard our views on ``The Role of Certification in 
Rewarding Sustainable Fishing.''

National Fisheries Institute and Its Engagement in Sustainability
    The National Fisheries Institute is America's largest seafood trade 
association. Its membership includes the entire seafood value chain: 
vessels at sea, importers, processing companies, exporters, 
distributors, retailers and restaurant groups. The issue of 
sustainability is fundamental to the Institute's program because well-
managed fisheries are the life blood of the seafood supply chain. 
Without fish there are no warehousemen storing seafood, no workers 
cutting fish early in the morning, and no chefs and wait staff 
providing diners a nutritious and delicious meal.
    NFI's President, John Connelly, serves on several global 
sustainability organizations' Board of Directors, including: The World 
Bank's ALLFISH program, the tuna-focused International Seafood 
Sustainability Foundation (ISSF), and the Marine Stewardship Council 
(MSC). NFI also was instrumental in developing the concept of the 
Global Seafood Sustainability Initiative (GSSI). The comments submitted 
reflect NFI's views and not necessarily the views of ALLFISH, ISSF, 
GSSI, or MSC.

National Fisheries Institute Sustainability Policy
    NFI's policy is that fisheries management is a fundamental 
government function. That is, decisions about fisheries management 
should be made through appropriate government decision bodies. In the 
case of the United States, fisheries decisions are made through the 
Fisheries Management Council system and the implementation of the 
Magnuson Stevens Act (MSA). NFI joins with global fisheries experts in 
recognizing the NOAA Fisheries-led Council system as robust, 
transparent, participatory, and science-based. If a seafood company, 
academic, researcher or conservation group wants to influence U.S. 
fisheries, they have every opportunity and should engage fully in the 
Council system.
    Because this peer-reviewed system of U.S. management is so robust, 
NFI believes that any fish managed under MSA's 10 National Standards 
are sustainable. We acknowledge that some fisheries are still in 
rebuilding, but the Councils, NOAA Fisheries, and ultimately the 
Secretary of Commerce have the authority to stop harvesting if the 
system falters and a fishery becomes in danger.

European Market Demand for Third-Party Certification
    NFI also recognizes that some markets, especially in Northern 
Europe, seek a third-party certification of sustainability, primarily 
MSC. There are a number of theories why European markets demand such 
certifications, the most common being the struggles of the European 
Union to develop and implement a fisheries policy that protects fish 
stocks for the future while maintaining the fishing fleets culturally 
and economically important to many European nations. This challenge has 
led to concerns about fisheries management in European waters and a 
conviction that retailers needed to address the situation. The step 
retailers have taken is third-party certification.
    Regardless of the rationale, American fisheries are required by 
European markets to engage in these third-party certifications. U.S. 
fish and fishmeal exports to EU nations totaled nearly $1.2 billion in 
2012--21 percent of an overall $5.7 billion export industry. New 
England and Alaskan fish exporters in particular cannot ignore their 
customers' requests for certification. To do so would be to risk losing 
share to foreign competitors that have submitted to the certification 
demand.

U.S. Government Policies and Actions Requiring Third-Party 
        Certification
    In the past few years, in an effort to promote healthy food choices 
among vendors, the General Services Administration (GSA), with the 
Department of Health and Human Services (HHS), developed guidelines for 
good eating options. NFI welcomes that development, because U.S. 
Government policy, promulgated through the Dietary Guidelines for 
Americans, encourages Americans to eat seafood at least twice weekly. 
However, for seafood and no other protein, GSA and HHS went beyond 
healthy eating options and delved into sustainability by requiring 
third-party certification.
    The GSA serves as the Federal Government's ``chief procurement 
officer'' and sets policies that other agencies must adhere to in 
buying decisions. The policy GSA establishes impacts the hundreds of 
billions of purchases made by the United States Government every year--
and has the potential to spill over into private sector purchasing 
decisions as well.
    The Department of the Interior and the National Park Service in 
June 2013 announced an implementation of GSA policy and that vendors of 
seafood at Parks must meet the following:


Sustainable           Where seafood options are offered, provide only
 Fisheries             those that are ``Best Choices'' or ``Good
                       Alternatives'' on the Monterey Bay Aquarium
                       Seafood Watch list, certified sustainable by the
                       Marine Stewardship Council (MSC), or identified
                       by an equivalent program that has been approved
                       by the NPS.



    The Marine Stewardship Council (MSC) is a London-based organization 
that establishes standards for sustainable fisheries. Fisheries seeking 
certification retain accredited third parties to review the fisheries 
stock status, environmental impacts, and management controls. Fisheries 
or consumer products companies wishing to display a logo of 
certification pay MSC a fee.
    The Monterey Bay Aquarium, a private organization in California, 
has established a list of fish it considers a best environmental choice 
or an adequate alternative. For graphic balance on handout cards, it 
has also compiled a long list of fish that it tells consumers to avoid. 
The Aquarium's rating system is not transparent, and most U.S. 
fisheries strongly object to how the Aquarium goes about making its 
recommendations. In fact, some iconic seafood, such as nearly all 
canned tuna, is characterized as ``avoid.''
    In addition to the GSA and NPS actions, there are reports that some 
vendors to the Department of Defense require suppliers to only source 
third party certified seafood for Navy and Marine Corps mess halls, 
Army chow lines, or Air Force restaurants.
National Fisheries Institute's Concerns with U.S. Government Policies 
        and Actions Requiring Third-Party Certification
    NFI is deeply concerned about the GSA policy for at least the 
following ten reasons:

  1.  GSA's Policy Questions the Competence of NOAA Fisheries: NOAA 
        Fisheries is regarded as overseeing a world class fisheries 
        management system. The GSA policy to require a third party to 
        certify that seafood caught under the MSA, the 10 National 
        Standards, and the Councils, calls into question the competence 
        of NOAA Fisheries. If NOAA Fisheries is doing its job, as 
        overseen by Congress and the Subcommittee on Oceans, 
        Atmosphere, Fisheries, and Coast Guard, why is a third party 
        necessary? Conversely, if a third party is necessary, then NOAA 
        must be incompetent.

     It is one thing for the private sector to require a third-party 
        certification as the price of a sale. But it is quite another 
        for one Federal agency to conclude in effect that its sister 
        agency is incompetent at carrying out that agency's core 
        mission.

  2.  GSA's Policy Reinterprets What is ``Sustainable Seafood'': GSA 
        policy outlines ``standard criteria'' as requiring contractors 
        to ``Only offer fish/seafood identified as ``Best Choices'' or 
        ``Good Alternatives'' on the Monterey Bay Aquarium's Seafood 
        Watch list or certified by Marine Stewardship Council (or 
        equivalent program).''

     GSA has not provided a clear rationale for why NOAA-managed 
        fisheries, implementing the MSA law that Congress debated and 
        passed, is an insufficient definition of ``sustainability.'' 
        Rather, GSA is--without analysis or inquiry of its own--ceding 
        the definition of ``sustainability'' to groups outside 
        government.

  3.  GSA's Policy Confuses Which Government Agencies are Responsible 
        for Food Safety and Sustainability: In a footnote (44) to its 
        policy, GSA states, ``Examples of ``Best Choices'' do not imply 
        government endorsement of these standards. Only endorsements 
        made directly by governing agencies (e.g., USDA, FDA) should be 
        considered government endorsements.''

     NOAA is responsible for fisheries management. FDA is responsible 
        for seafood safety. A reference to FDA as a ``governing 
        agency'' that could ``endorse'' a standard on sustainability 
        reveals a fundamental misunderstanding of the role of GSA's 
        sister agencies in sustainability decisions.

  4.  GSA's Policy Questions the $800,000,000 Federal Investment in 
        Research and NOAA Fisheries Operations: NOAA Fisheries budget 
        is about $880 million. Much of that spending is on research 
        that serves as the foundation of Council decisions. Requiring 
        third-party certification calls into question the value of that 
        Federal investment in such research.

  5.   GSA's Policy Increases Costs to Federal Government or Vendors' 
        Customers: By limiting choices to only fish certified by a 
        single sustainability group or aquarium's rankings, the GSA 
        policy is limiting supply. Simple economics suggests that 
        restrained supplies will increase prices.

     In internal NPS communications, NPS Director Jarvis acknowledges, 
        ``sustainable food choices tend to be more expensive.'' This 
        statement is troubling because there is no indication that 
        NOAA-managed fisheries are not already sustainable and no 
        support for why fisheries, and ultimately, GSA's Federal agency 
        ``customers'' must absorb the extra costs to certify their 
        sustainability.

     In the tight fiscal environment, is it appropriate that GSA would 
        develop and other agencies implement a policy that increases 
        costs for the government?

  6.  GSA's Policy, with Its Singular Focus on Fish Sustainability, 
        Disadvantages Seafood in the Market: The GSA policy only 
        requires third-party certification or aquarium approval for 
        seafood. The Department of Interior and NPS implementation of 
        the GSA policy only references certification requirements for 
        seafood. There is no indication of why seafood solely is 
        singled out for this requirement.

     GSA oversees procurement policy for paper plates and paper clips, 
        office supplies and office buildings. Yet GSA has not developed 
        a policy that requires third party review of those products. 
        The NPS vendors sell hot dogs on buns and lettuce, tomatoes, 
        and carrots in salads. Yet NPS does not require the hot dog 
        maker, the bread maker or the fruit and vegetable farmer to 
        prove the sustainability of their products.

     By requiring seafood to undergo third-party certification, GSA and 
        implementing agencies are increasing seafood's costs, putting 
        that healthy protein at a competitive price disadvantage to 
        other foods. This is particularly troubling as Federal policy, 
        as described in the Dietary Guidelines for Americans, is for 
        Federal agencies to encourage increased seafood consumption due 
        to its health benefits.

  7.  GSA's Policy Reduces Accountability to Congress: One of the 
        reasons the U.S. fisheries management system is a success is 
        that this and other Congressional Committees provide 
        appropriate oversight of MSA implementation and NOAA Fisheries 
        operations. The GSA policy and its implementation, though, 
        begin to cede responsibility for fisheries management to third 
        party groups. Those groups are not accountable to Congressional 
        oversight.

     As an example, some third parties grant certification with 
        ``conditions.'' These conditions are changes the fishery must 
        make over a five year period. Several of the conditions may 
        require action by the government in whose waters the harvest 
        occurs. In at least some cases, this means that NOAA Fisheries 
        will be pressured to expend resources to address one fishery's 
        ``condition'' when NOAA feels another fishery's situation 
        requires more attention and resources. This means that the 
        third-party certification process, required to maintain markets 
        in Europe, can and does trump the priorities that Congress and 
        NOAA have identified as more important.

  8.  GSA's Policy Provides an Unexplained Preference for One Third-
        Party Certification and Aquarium over Others: The GSA policy 
        states it will accept only MSC certifications or Monterey Bay 
        Aquarium rankings. NFI questions the technical expertise of HHS 
        and GSA staff in selecting only these groups for approval. 
        While both organizations may provide value to some groups, GSA 
        and HHS have provided no basis for their decisions in selecting 
        them.

     Further, NPS implementation states it will accept an ``equivalent 
        program that has been approved by the NPS.'' NFI is unaware of 
        NPS' technical expertise in selecting other programs that it 
        would deem ``equivalent.''

     In response to an NFI letter to Secretary Jewell about the 
        program, Lena McDowall, DOI Associate Director of Business 
        Services, wrote to NFI on September 5, 2013, that a revision to 
        the guidelines ``will no longer endorse a particular certifying 
        body.'' Even if this change takes place at NPS, it does not 
        change the underlying GSA policy.

  9.  GSA's Policy Was Developed Without Consultation with the Impacted 
        Seafood Community: In an undated memo to ``Associate and 
        Assistant Directors; Regional Directors'' with ``Subject: 
        National Park Service Healthy Food Choice Standards and 
        Sustainable Food Choice Guidelines for Front Country 
        Operations'' NPS Director Jarvis states, ``collaboration 
        between NPS, concessioners, and industry and government experts 
        has produced standards and guidelines that will be practical 
        and effective.''

     Further, in an exchange with Senator Murkowski during a July 25, 
        2013 Senate Energy and Natural Resources Committee hearing, 
        when asked who was involved in the NPS self-described 
        ``yearlong consultation process,'' Director Jarvis stated, 
        ``With the concessioners. With every one of the concessioners. 
        Our food service providers.''

     Neither NFI nor any other seafood organization was contacted by 
        NPS in development of this policy. As the food sector singled 
        out in the GSA and NPS policies and guidelines, the seafood 
        community would have been able to provide an important 
        perspective to these government deliberations and decisions.

 10.  NPS Has Expressed A Willingness to Adjust Its Policy, But for 
        Only One Region: In another exchange with Senator Murkowski 
        when pressed, NPS Director Jarvis stated, ``What I am willing 
        to do is to change the guidelines so it includes Alaska wild 
        caught fish. I think that's the simple fix here.''

     The State of Alaska operates an excellent fisheries management 
        system for state waters--one with foundations in the state 
        constitution. In Federal waters off Alaska, the Council system 
        ensures a sustainable supply of fish for Americans and global 
        export markets. However, the MSA is a national law. The Council 
        system, while reflecting regional differences, operates in 
        similar fashion in waters off Florida, off New Jersey, and off 
        New Hampshire. An exception to the GSA or NPS policy for a 
        single region is an inadequate and unjust response to the 
        issue.

National Fisheries Institute Recommendations
    NFI recommends the following:

  1.  Congress Should Clarify that NOAA is the Arbiter of 
        Sustainability of U.S. Caught Fish: Congress should enact 
        legislation that clarifies for Executive Branch agencies that 
        NOAA Fisheries, through its implementation of the 
        Congressionally-debated and enacted Magnuson Stevens Act, 
        establishes what sustainable seafood for U.S. Government 
        purchases is.

  2.  NOAA Should Buy a Printing Press and Develop a Robust Twitter 
        Account: NOAA Fisheries oversees a world class fisheries 
        management system, with most stocks in excellent shape. NOAA 
        Fisheries scientists report overfishing has ended due to the 
        requirements of the MSA. Despite that fact, many Americans 
        question the state of the Nation's fisheries.

     NOAA Fisheries budget is about $880 million, yet its 
        communications program is limited. The average American hears 
        little from NOAA Fisheries, and often only in response to some 
        report about a supposedly imminent ocean resource calamity. The 
        fact that GSA and HHS developed a policy and NPS began 
        implementation without conferring with NOAA Fisheries is 
        troubling. This lack of consultation suggests that Americans, 
        including officials at NOAA's sister agencies, do not know how 
        the Nation's ocean resources are managed. NOAA Fisheries, to a 
        great extent, is a government success story---yet few know that 
        story.

     Congress should require NOAA Fisheries to develop a robust 
        communications strategy that explains, in lay terms, how the 
        government manages its fisheries resources, the opportunities 
        available for all Americans to engage in the Council system, 
        and the success NOAA Fisheries has had in ensuring an abundance 
        of fish now and for the future.

     The communications program need not go to formation of a NOAA eco-
        label. Labels require an extensive and expensive system behind 
        it that can communicate to the nearly 320 million Americans or 
        more than 500 million Europeans. A major part of that 
        background support system would be communications about why an 
        eco-label can be trusted. So, rather than expend money on an 
        eco-label, NOAA Fisheries should spend a portion of its budget 
        explaining the robustness and success of its management system.

     NGOs long ago determined that a broad advertising program is not 
        as effective as a strategy of finding choke points in the 
        supply chain as the best means to impact consumer choices. That 
        is why so few NGOs advertise widely.

     While the NOAA communications strategy should include appropriate 
        tools to inform the general public, a focus should be on 
        communicating to the 350 institutional buyers of fish in the 
        United States. These grocery store and restaurant buyers 
        determine what we are offered on the menu or at fish counter. 
        Many of them have developed relationships with various 
        sustainability partners. Few buyers, though, have regular 
        interaction with the appropriate level of Department of 
        Commerce or NOAA staff that can explain that fish caught in 
        U.S. waters is sustainable. Fewer still corporate 
        communications and marketing staff understand the political 
        impacts of their decision to move to a third-party 
        certification system.

     NFI feels strongly that if retail and restaurant corporate 
        leaders, their communications and public affairs staff, and 
        their buyers in the U.S. and Europe better understood how 
        American fisheries are managed, the demand for third-party 
        certifications would be reduced. Absent that communications 
        effort, neither Congress nor NOAA Fisheries should be surprised 
        if third-party certification or private groups' ranking 
        dominates buyers' decisions.

    The National Fisheries Institute appreciates the opportunity to 
provide information to the Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard regarding U.S. Government policies and 
actions and third-party certifications of fisheries.

    Senator Begich. Thank you very much. Thanks for that good 
testimony.
    Let me--a vote has been called, but we have time for a 
round of questions, so we'll go through those. I'll do five-
minute rounds.
    And first, let me start with Ms. Moreland.
    Stefanie, thank you for being here. Thank you for talking 
about ASMI's Responsible Fisheries Management Program. Let me 
ask you, as that program gets finalized and developed, how 
would you compare that to MSC's process? In other words, is it 
equal in ensuring what standards they're looking for? Is it 
more robust? Is it, you know, kind of--how do you measure the 
two if someone was to say, you know, I want that labeling or 
that certification? How would we compare?
    Ms. Moreland. Senator Begich, thank you for the question, 
and I just want to, first, clarify that we're not just getting 
the program up and running; it is running. It's ready to go.
    Senator Begich. Right.
    Ms. Moreland. And we even have Scott, who--new news, as of 
this week, that chain of custody process is also now ISO 
accredited and ASMI will be rolling out information on that. So 
we have a full program that's ready to go and being used now.
    And, relative to MSC, I think we have just a fundamental 
difference in view of what the appropriate role of a 
certification body is. We see certification and verification, 
that sustainability criteria are being met as different than 
governing fisheries. And, as you know, in Alaska, we have a 
very robust, transparent public process informed by science. 
That----
    Senator Begich. Go ahead.
    Ms. Moreland. That process, we feel, is being undermined by 
a separate certification body that continues to change what 
expectations are for defining sustainability.
    And one last point: the Program, RFM, that ASMI helped put 
up, is actually a measure of sustainability. So it uses third-
party process to verify that sustainability criteria are being 
met. MSC will issue conditional certification so that a fishery 
may not be performing at a sustainable level today, but puts in 
place a plan to get there. MSC label may be used in that case; 
our system would not do that.
    Senator Begich. So let me make sure I'm clear on that.
    So, if you have a fisheries within Alaska, in our state, 
that is not--it's on a plan, but not yet clear if it's going to 
be sustainable, because not all plans come out becoming 
sustainable. You could have failure in the plan over a period 
of years. That would not meet the standard that you're now--
have in place?
    Ms. Moreland. Correct.
    Senator Begich. MSC, it would meet the standard?
    Ms. Moreland. I can't speak for how or whether it would 
meet the standard, but I am aware that they issue conditional 
certification, meaning that there need to be changes to the 
fishery to achieve sustainability.
    Senator Begich. Got you. Thank you very much.
    Let me, if I can Mr. Rice, thank you very much for being 
here. Thank you for all the conversations I've had with Wal-
Mart and, not only me personally, but my staff and the work, 
and I do agree that there's a lot of effort you have done from 
a variety of efforts in renewable energy and LEED standards, 
and just all of the things trying to make your operation 
better, because every business achieves and tries to achieve. 
So thank you for doing that.
    But, you know, one area I want to and follow up on--and you 
made the comment, and that is, you're open for looking at these 
issues. I guess my question is--you just heard a brief 
description, not only in the testimony, but also in the 
question for Ms. Moreland on what we're doing in Alaska. The 
question I always have is, especially with government agencies 
and with private sector is, when people make those statements, 
what's the timed--how do you measure when you can get to that 
decision to say, yes, we're still buying Alaska seafood, but 
also, we now accept or reject, depending on the outcome, this 
new standard that Alaska's using for their fisheries? How do 
you--how will you have a definitive timetable to get there? And 
then I have another quick question.
    Mr. Rice. Well, Thank you. Thank you so much for the 
question.
    We`ve actually engaged the sustainability consortium, as we 
said in our testimony. In working through them, we understand 
that they're on a timeline, but we will get to an answer very 
quickly. This is not re-doing work; it's not developing a new 
standard. It's really giving a lot of organizations, but Wal-
Mart also, the confidence and comfort to know that--what 
standards and certifications lead to sustainable fisheries and 
what don't. That process has kicked off and is underway. And we 
believe that they will have a set of principles and criteria 
that can be used to evaluate those standards by the end of this 
calendar year, so by the end of December. In the meantime, we 
continue to source seafood from Alaska and we're confident that 
we'll be able to continue to source seafood from Alaska in the 
years ahead.
    Senator Begich. Do you feel the conversations have been 
productive in helping Wal-Mart understand, kind of, our process 
in Alaska and the more exhausted process that we utilize?
    Mr. Rice. Absolutely.
    It's been extremely helpful, the engagement and the 
dialogue we've been in. And again, we encourage ASMI and other 
experts from certification standards, bodies and industry to 
engage in this process to make sure that the criteria and 
principles that are developed are robust and do lead to 
sustainable fisheries.
    Senator Begich. Let me ask you one other quick one. I have 
one other one, then I'll turn right quickly to Senator 
Blumenthal. And that is, I know, and it sounds like, you know, 
we have a challenge between--and we always seem to bring up 
Russia here, but Russia's snow crab versus Alaska's snow crab, 
you know, we don't have the MSC, but actually, Russian snow 
crab is in, kind of--in a fishery improvement project and we 
have some issues with illegal fishing and some other things.
    Do you see, down the road, when you look at Alaska snow 
crab, because we don't get an MSC certification, but if it 
falls under this other certification, it may then qualify 
within your sustainability list? Even though I would tell you 
that Russian snow crabs shouldn't qualify based on what we know 
about it, but we'll pause and give you a second here.
    Mr. Rice. Sure. Well, we----
    Senator Begich. I love my Russian friends, but----
    Mr. Rice. But----
    Senator Begich.--when they have crab that is caught 
illegally or low-quality, then we're going to have a response 
to them.
    Mr. Rice. Sure. No, absolutely.
    We make every effort to provide the broadest assortment of 
seafood to our customers and--but all of the seafood that we 
procure have to meet our sustainability requirements.
    As we said in our opening statements, we believe fully that 
there can and should be multiple standards and certifications 
that demonstrate sustainable fisheries. And so, we're confident 
that--that Alaskan crab will do that. But any seafood we source 
from anywhere around the world must meet those same criteria.
    Senator Begich. Understood, thank you.
    Mr.--Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Appreciate all of you being here today.
    And let me say to Mr. Montelongo, I am very interested in 
the Global Sustainable Seafood Initiative and in the work that 
Sodexo has been doing, as well as Wal-Mart, to improve 
sustainability.
    Let me ask both of you: how good is the information that we 
have on the sources of seafood that you actually purchase? Do 
you have total trust? Are you confident that the information is 
reliable and accurate? Maybe begin with you, Mr. Montelongo.
    Mr. Montelongo. I thank you for your questions, Senator.
    I must tell you that I don't have an expertise in our 
sustainability or purchasing practices, but what I will tell 
you is that since you brought up the GSSI, we happen to be a 
founding partner and board member of that initiative. And that 
particular initiative is focusing on creating flexibility in 
the use and recombination of standards and verification methods 
in the different stages of the supply chain. That's very 
critical, because we're not just talking about focusing on 
solely the fishery component, but also downstream into the 
processing component as well. It's also focusing on creating 
flexibility and the use of different standards and verification 
methods for meeting different market requirements, something 
that Mr. Rice had just brought up that I would concur with. And 
then, finally, mobilizing synergies among compliance standards 
and improving the overall standard system, which I believe, 
frankly, is consistent with what this Subcommittee is concerned 
with--making sure that we have some consistency among all the 
different standards and certifications out there.
    Senator Blumenthal. And are you confident that, so far as 
the information on the fisheries are concerned, that the 
information you're receiving, either through the global 
sustainable seafood initiative or any other source, is 
accurate, or do you think there is a need for more oversight 
and scrutiny?
    Mr. Montelongo. I can't speak to the entire waterfront of 
all of the----
    Senator Blumenthal. And if you like, you know, I'm happy to 
receive a supplemental response from Sodexo, if you would----
    Mr. Montelongo. Let me do that, Senator, if you don't mind.
    Senator Blumenthal. Sure.
    Mr. Montelongo. Thank you.
    Senator Blumenthal. Sure. Yes, sir.
    Mr. Rice. Thank you so much for the question, and I agree 
with my colleague up here that, you know, we're encouraged by 
the GSSI process and--and also the process that we have kicked 
off in the shorter term within the sustainability consortium.
    There is a need for better coordination in collaboration 
among standards organizations and a way to--again, our goal, 
and I think the Committee's goal and fishermen's goal, is to 
continue recognizing and selling seafood that's sustainable, 
healthy, and affordable to our customers. So we're encouraged 
by these initiatives. We are confident in the information we're 
getting, but we do recognize the need for better transparency 
and better chain of custody programs. We think that these are 
evolving and improving over time and so we think the 
information is getting better and we're becoming more 
confident. Thank you.
    Senator Blumenthal. Well, again, I want to thank you, all 
of the panelists, for being here.
    I'm going to have to go vote. I'm going to ask you to 
remain in place. I understand that Senator Begich is on his way 
back and he may have some additional questions.
    I want to say how much I appreciate Sodexo's work for our 
military. I know, as a member of the Armed Services Committee 
and also having recently been honored along with Sodexo by the 
Marine Corps Scholarship Foundation, of the outstanding work 
that your company does and want to express my appreciation. 
Thank you.
    Mr. Monelongo. Thank you very much, Senator. I'll be 
certain to pass that along to our colleagues.
    Senator Blumenthal. Thank you.
    Mr. Montelongo. Thank you.
    Senator Blumenthal. Thank you all. And if you could just 
remain here. I really do apologize, but I'm going to have to go 
vote. Thank you.
    [Recess.]
    Senator Begich. Thank you all very much; appreciate it.
    The one thing you get around here is, you don't need to go 
to aerobics, you just need to go to votes every day.
    [Laughter.]
    Senator Begich. It's not only walking or running there, but 
battling the press as they try to go after you on issues. Thank 
you for being patient.
    I just have a couple quick questions, I know Senator 
Blumenthal finished with his line of questioning. If I can, to 
Mr. Connelly, if I can just ask you a quick question. I'm going 
to have a couple for you, Mr. Montelongo. And I apologize, I'm 
catching my breath here.
    You had mentioned and you triggered something I thought was 
very important. I want to re-mention, or restate it. And they 
should do it publicly, and we'll ask them to do that, but the 
Park Service did contact us this morning and recognize now 
we're going--they're going to follow the new guidelines, which 
is good news, I think. And--but your point about DOD is a very 
good one. And we intend to send a letter to them today, if not 
by tomorrow, to the Secretary making sure it's very clear to 
these new guidelines will--we will assist the efforts of GSA 
making sure, because they do a lot of outsourcing. And matter 
of fact, one of the conversations I'll have next is with Sodexo 
because of their work with our military. So that's a really 
good comment.
    Let me ask you a little bit on NOAA again, a good point 
that maybe NOAA doesn't do enough in explaining to not only 
their Federal agencies, but to maybe even some other agencies 
in state governments, local governments, the value of their 
science and information they provide.
    Is that kind of what you were hinting at, that they do a 
lot of great internal work--we see it here, you might see it in 
your organization, but they're not really boasting about it.
    Mr. Connelly. Right.
    Senator Begich. Is that a fair----
    Mr. Connelly. That's exactly the point, Senator. That NOAA 
does great work, but they are a--sometimes, the science-based 
organizations in government just want to do their science.
    Senator Begich. Right.
    Mr. Connelly. And they don't feel the responsibility, or 
they may feel the responsibility, but they don't carve out 
enough resources to actually go communicate all the good that 
they do.
    Senator Begich. Right.
    Mr. Connelly. In this case, we--you would have another 
hearing in 5 years, I would suspect, unless the Federal 
Government, through NOAA, begins to more forcefully communicate 
how well they do things.
    Senator Begich. Right.
    Mr. Connelly. Because we--they have left the field open to 
others to define what sustainability is.
    Senator Begich. Do you think one of the issues--and I know 
as the Chair of the Committee here, I'm spending time now 
getting ready for the Magnuson-Stevens Act reauthorization--you 
know, and having listening sessions, hearings. And I'll be up 
in the Northeast again, the New England states, in a week or 
so, talking to fishermen. And there are a lot of different 
views about NOAA there among the fishermen versus Alaska. I 
think that in Alaska, we've spent a lot of time in that 
communication realm to make sure--we may disagree with the 
outcome sometimes, but we recognize that the science is there 
in creating better fisheries for us over time.
    Do you think, and I don't necessarily want to get you in 
the middle of this one, but do you think that is an effort, 
too, that NOAA needs to do with regards to these fishing 
communities to make sure they understand the science? They 
don't have to agree with it, but just the process, how they get 
there. And I sense, in the New England states, this is one of 
the problems. There are some enforcement issues, too, that 
brood, but on this other piece, it seems like there's a gap 
here. Is that----
    Mr. Connelly. Well, you might have guessed from my accent 
that I have some allegiance or alliance to the Northeast, so--
--
    Senator Begich. That's why I wanted to easily slide it in 
here.
    [Laughter.]
    Mr. Connelly. I actually find it interesting. New England 
is considered the great progressive area of the country and yet 
my sister-in-law and brother-in-law are park rangers up at 
Wrangell-St. Elias. The last--Alaska's the last place where 
rugged individualism, and yet there's such a collaborative 
effort between industry, government, academics, researchers in 
the areas of seafood management. So it's a--it's an odd mix.
    And, we feel strongly that communications both in lay terms 
out in the science--the lay science magazines Nature Science, 
Scientific America are important, because that's where the 
general press is getting their information. If we just--if NOAA 
just goes to American Fishery Biology Magazine----
    Senator Begich. It goes----
    Mr. Connelly. It might be--might be a very interesting 
magazine article, but not many people are going to read it.
    Senator Begich. Right.
    Mr. Connelly. And so, I think that getting communication at 
the fishing community level to the lay public. But I feel very 
strongly that in a way, we have left the institutional buyers 
naked because we don't give them enough information about how 
well fisheries are run, and so they have to go someplace else 
when they're attacked.
    Senator Begich. Right.
    Mr. Connelly. So when activist groups come in and says, you 
need--you're not doing an appropriate level of protection of 
the resource, so you need to go get a third party to do this 
work.
    Well, government should go in and help those institutional 
buyers understand all the good that, through Magnuson and the 
oversight of this Subcommittee and the full committee, NOAA is 
doing. And so that's really the point, is to get out there and 
communicate.
    Senator Begich. And I think that's, and I'll use Mr. Rice 
here as a prop here for a second and say that--I mean, one of 
the comments you, Mr. Rice, said earlier was in my questioning, 
was it gave him more information when he met with our Alaskan 
folks on how we're doing sustainability. And I think that both 
of the industry folks acknowledged that they're not in the 
sustainability business of understanding all of the details or 
of fisheries management. But they want to create a product--buy 
a product that the consumer wants that is sustainable that they 
require. And so what--there may be a linkage that we have to 
have better--maybe NOAA has to have a relationship with the 
industry on a more ad hoc and advisory basis to say, here's 
some stuff we're doing, rather than moments like this where 
we--no disrespect to the two industry--we drag them in here and 
have to, you know, say, what the heck's going on? Maybe that is 
a piece of the equation.
    Mr. Connelly. Right. FishWatch is a great start.
    Senator Begich. Right.
    Mr. Connelly. However, it's not the end. I really think----
    Senator Begich. It's the beginning.
    Mr. Connelly. The people in Bentonville, I think, would 
welcome conversations about how well things are done. I think 
the people in Gaithersburg would welcome those conversations.
    But it needs to be at the right level from NOAA fisheries 
to go down and explain fully, and I think you'd find a welcome 
audience, because it's more information--allows them to make a 
better decision.
    Senator Begich. Let me, if I can, Mr. Montelongo, let me 
ask you--and first, thank you very much for being here. And I 
know everybody's schedule is always tight, so I appreciate you 
being here and being part of this and same as with the Wal-Mart 
representative. Thank you for taking our calls and our 
harassment. I know sometimes when you have someone from a 
Congressional office or government calling you, it's the last 
thing really on your list of today. I recognize that.
    But being here is important and you are a large supplier. 
We're one--the U.S. Government is one of your customers in a 
variety of ways as well as other governments, local governments 
and so forth.
    So I speak to you as, maybe if I can put it in a business 
term, as someone from the business world, I'm one of the board 
of directors of a company that does business with you. And we 
want to make sure that our customers are heard, too.
    And so, you've heard some of the discussion. Let me, maybe, 
if you could respond very quickly to maybe Mr. Connelly's 
comments about, and my comment about this NOAA education 
opportunity, making sure more industry is connected to what 
NOAA's trying to do so you have more information advantage.
    Does that make sense? Or is that something that, Sodexo 
would embrace that, knowing that we have a government agency 
that does a lot around fisheries management, obviously. And 
more of their information would be helpful as you make your 
decisions down the road as a company. Is that a--can I assume 
that, or is that a----
    Mr. Montelongo. Mr. Chairman, that's a fair statement. 
Obviously----
    Senator Begich. Is your microphone on? I'm sorry.
    Mr. Montelongo. I keep forgetting that----
    Senator Begich. I do that for this gentleman here because 
he will tell me later, we didn't catch their testimony.
    [Laughter.]
    Mr. Montelongo. My apologies, and thank you, Mr. Chairman.
    Senator Begich. Sure.
    Mr. Montelongo. As I mentioned in my testimony earlier, we 
do consult with and engage with a number of very well-respected 
organizations to include NOAA. And I would tell you that we 
very much would welcome even widening the aperture of 
individuals that we would be speaking to include AMSI, as Mr. 
Rice had indicated. And we had indicated to your staff that 
we're very open to, essentially, having those conversations.
    But certainly, engaging in an education process, we would 
absolutely welcome, because I think the more that we're 
involved in hearing what experts have to say, in particular, 
would inform and help with our purchasing decisions.
    Senator Begich. In your third-party certification process 
you acquire, are you, as a company, limiting yourself to one 
type, and again, I lean back over to the state of Alaska's 
efforts through ASMI. Are you open as Wal-Mart is in what 
they're doing in trying to understand that, and then if that 
meets their criteria, to accept that as a certification?
    Mr. Montelongo. Mr. Chairman, just to directly respond to 
your question, yes, we're open to looking at what other avenues 
or what other chains of custody certification methods are out 
there, what other regimens, what other frameworks are available 
to get us to the endpoint. And the endpoint, really, is about 
satisfying what our customers' needs are and being consistent 
to our principles of being a socially responsible company.
    Senator Begich. Do you think that the time--tell me, kind 
of, again, I know I asked Wal-Mart this question, but from 
Sodexo's standpoint, what kind of time-frame and engagement do 
you need to make a determination of if the Responsible 
Fisheries Management Program, RFM, is acceptable or not 
acceptable to your company as an alternative, or an additional, 
however you want to phrase it, certification?
    Mr. Montelongo. Senator, I must confess that I don't know 
exactly what our timeframe is. I can certainly confer with my 
experts and my colleagues who are experts in that area and come 
back to you with a specific answer on that. I don't suspect, 
though, that once we engage in the conversations and find out 
what the standards are, and if the standards, certainly, are 
meeting marketplace demands and so forth and are consistent 
with our principles, that that would necessarily take an 
inordinate amount or time. But I want to be responsive to your 
request and get you something a bit more accurate.
    Senator Begich. I would appreciate that. Let me say to both 
the private sector companies here: first, I do thank you for 
taking my impromptu calls and your willingness to listen to my 
rant when I was on the phone or my staff was on the phone to 
your companies. But I think you recognize this is something 
this committee's trying to do on a regular basis. You know, we 
battle over this issue, over the Farm Bill right now. You know, 
if we had a Fish Bill, the same criteria, it'd be unbelievable. 
The only difference is we harvest from the water, not the land. 
That's the only difference. Seafood is always kind of like a 
second-class food product, it seems, in this country, but yet 
it employs, in Alaska, 40,000 plus people, as one example. But 
it is an industry that is really American, when you think about 
it. It is capital-intensive, it is risk, it is entrepreneurs. 
It is what this country is all about. And yet, we sometimes 
kind of throw it off to the side.
    So you, hopefully, recognize the sensitivity, may they be 
from Florida or from the New England states, or especially from 
Alaska, how we feel when people say, well, we may not--and 
it's, to be frank with you, a foreign country certification 
program--that without us, they wouldn't exist today. Because we 
were the first to be certified under them and gave them, kind 
of, the juice to be where they are.
    It is aggravating in some ways now seeing this new video 
that I just saw of this new piece they put on the line, which 
is outrageous, especially when they've certified some of those 
same organizations that fish that, which is amazing to me. You 
can understand the sensitivity here, and for our jobs in 
Alaska, it is huge. And we're very excited about our robust 
year of this so far on some of our species. But we, like you, 
have built-in--I think we might be the only state that has it 
built into our Constitution--sustainability.
    So we take it seriously. It's real business for us, because 
for a long time, Alaska has been exploited by many other 
states. They come in, extract, and then leave us with nothing. 
And maybe--the fur industry, the gold industry, the fish 
industry--I can go through the list. And so when we built our 
Constitution, we wanted to make sure we developed it for 
Alaskans; sustainable, long-term, generational.
    And so, hopefully you're understanding of those calls and 
why we called this meeting to really, kind of, get people 
thinking about it.
    I don't know if either one of you have additional comments. 
I see Mr. Rice's hand, it's like one of those quiz shows. I can 
feel him about to tap the button. But please, Mr. Rice.
    Mr. Rice. No, no, I again, thank you so much for the 
opportunity to come and share our views. And we would 
definitely, at Wal-Mart, welcome more engagement by NOAA and 
ongoing conversations with ASMI.
    We're excited about moving forward in the process we've 
outlined. We would welcome Sodexo, in that process, to help us 
over the coming weeks and months. So, just, thank you so much. 
And again, we're--we have shared goals. We want to continue 
selling our customers in the U.S. and around the world safe, 
affordable, sustainable, delicious seafood from Alaska and 
around the world.
    So thank you so much.
    Senator Begich. Thank you.
    Mr. Montelongo. Mr. Chairman, I would just add to that to 
say that we do, indeed, share those very same goals and we're 
very much looking forward to expanding the dialogue, as we've 
shared with your staff and with you, and look forward to that 
very much. And certainly, with our colleagues at Wal-Mart and 
other folks who really can help inform the debate and the 
dialogue so that we can, in fact, get to the end here, which is 
that we do find that we're serving our customers and clients 
the kind of sustainable seafood that they can be confident in 
the authenticity of that product every day.
    Senator Begich. Well, I appreciate both your comments. And 
to the panel, thank you for being here this afternoon, this 
morning. And thank you for letting us have that little break 
while we do some business on the floor.
    Again, we'll continue to have conversation, and I'm looking 
forward to good results. And again, today, just having GSA 
change their guidelines as well as the Park Service recognizing 
they need to--to change up. But we'll be working with DOD next.
    And from the private sector, thank you for your 
willingness--I know Senate hearings are not something that is 
on the top of your list to attend. But, it is helpful, because 
I think you all know, as large employers in this country, that 
if we can continue to build our economy, and this is one 
component of it, we should do it in every way that we can. And 
you are big drivers in that because of your power of ability to 
move the markets based on your product selections. And that is 
recognized by, I think, a lot of it and that's why you saw a 
fairly good attendance that came through today, because they 
recognized your market power is pretty significant.
    And we want to make sure that in your decision, you have 
all the information possible to make, hopefully, the right 
decisions at the end of the day. Of course, being biased, I 
would say Alaska seafood is the right decision, but I'll leave 
that for judgment as we work on certification issues.
    Let me make sure on the record--how long?
    Two weeks. We'll keep the record open for 2 weeks, allowing 
time for some of the comments from this panel and last panel, 
who have information to present to the Committee, as well as 
other committee members who have questions for the record.
    At this time, we'll adjourn the meeting. Thank you.
    [Whereupon, at 12:25 p.m., the hearing was adjourned.]


                            A P P E N D I X

            Prepared Statement of the Gulf Seafood Institute

    The Gulf Seafood Institute is pleased to present the following 
written testimony on third-party sustainability certification of U.S. 
seafood and its impact on the seafood community, consumers and the 
marketplace. As a voice for the Gulf seafood communities in Texas, 
Louisiana, Mississippi, Alabama and Florida, the GSI maintains that the 
Federal Government, primarily the U.S. Department of Commerce and the 
National Oceanic and Atmospheric Administration (NOAA) under the 
Magnuson Stevens Fishery Conservation and Management Act, must have the 
loudest voice and the final say when determining the sustainability of 
our fisheries and when communicating that message with consumers.
    The mission of the Gulf Seafood Institute (GSI) is to protect the 
Gulf's unique culture and environment while elevating the Gulf seafood 
brand with consumers, customers and policy leaders through advocacy, 
education and science. The GSI's board of directors represents every 
Gulf state as well as every aspect of the industry--both commercial and 
recreational--and is positioned to be a leading voice on key issues 
including sustainability, seafood safety, disaster mitigation and 
recovery, and data collection. Additionally, GSI will seek to bolster 
fisheries science and research that will help preserve the Gulf seafood 
resource and contribute to the longevity of the industry overall. The 
GSI came together in July 2013 and is currently taking the steps 
necessary to organize under the laws of the state of Louisiana and will 
then seek approval of the IRS for determination of approved 501(c)(6) 
status.
    When it comes to ensuring the sustainability of our Nation's 
fisheries, GSI maintains that the process outlined under the Magnuson 
Stevens Fishery Conservation and Management Act (MSA) is working. The 
Department of Commerce, the National Marine Fisheries Service (NMFS) 
and the eight Regional Fishery Management Councils work together to 
monitor, manage and enforce a program that has led the United States to 
its position as a global leader in responsibly managed fisheries and 
sustainable seafood. Guided by 10 National Standards of sustainability, 
these agencies monitor, manage and legally enforce all marine fisheries 
in the United States under the most restrictive regulations in the 
world. As a result, U.S. fish populations are rebuilding and overall 
fish abundance is improving. Since 2000, thirty-two fish stocks in the 
U.S. have been rebuilt meaning that routine stock assessments conducted 
by fishery scientists indicate that the abundance of the stock is above 
the maximum sustainable yield.
    While protecting our fisheries and ocean ecosystems is imperative 
in its own right, getting U.S. seafood on the plates of consumers is 
equally important for both public health and for the economy of the 
U.S. seafood community. In order to be comfortable choosing seafood 
when making mealtime decisions, consumers must be confident in the 
sustainability of our fisheries. Along these lines, NOAA has 
implemented the FishWatch program as a primary tool to educate the 
public about seafood sustainability. FishWatch was designed to provide 
easy-to-understand, science-based facts to help consumers make smart, 
sustainable seafood choices. According to NOAA, FishWatch does not 
discriminate against one fishery or advocate for another, nor is it an 
ecolabel or certification. Rather, FishWatch helps consumers understand 
the science, laws and management processes working to protect our 
seafood supply.
    Despite NOAA's efforts to get out the message on sustainability, 
perhaps not enough is being done as evidenced by an abundance of third-
party seafood certification programs competing for the public's trust 
and attention. Market demands for more traceability have led to the 
emergence of several Gulf-based programs including Gulf Seafood Trace 
as well as state-sponsored programs in Alabama, Mississippi and 
Louisiana. These programs are supported by many in the commercial 
seafood community and are seen as a positive compliment to Federal data 
on sustainability by telling consumers a bigger story about where their 
seafood comes from. However, other programs that pit certain species 
against one another based on various and sometimes arbitrary criteria 
go beyond simple traceability and might lead to confusion rather than 
clarity in the marketplace.
    For example, the Marine Stewardship Council (MSC) and the Monterey 
Bay Aquarium have aggressive sustainability certification programs that 
are increasingly being relied upon by consumers, retailers and 
restaurants, oftentimes more than the U.S. Government's own FishWatch 
program. The MSC, a London-based 501(c)(3) charity which sets standards 
for sustainability and seafood traceability, has partnered with the 
world's leading retailers to help promote certain seafood products that 
meet their criteria. The Monterey Bay Aquarium's Seafood Watch program 
makes recommendations regarding which seafood items are ``Best 
Choices,'' ``Good Alternatives,'' and which ones you should ``Avoid.'' 
Monterey Bay Aquarium's process for ranking seafood is not transparent 
(unlike NOAA's process which encourages public participation at every 
level) which leads to concern from some in the seafood community.
    Given the abundance of seafood labeling programs, oftentimes the 
American public remains confused as to which products meet basic 
sustainability criteria as defined by the Federal Government and 
assured by the MSA process. Compounding this confusion is the fact that 
third-party recommendations often run counter to recommendations 
provided by FishWatch. For example, one prominent environmental 
organization lists most canned tuna as something to ``Avoid'' while 
FishWatch provides consumers much more detailed information on these 
species, leading with the fact that if seafood is harvested in the 
United States, it is inherently sustainable as a result of the rigorous 
U.S. management process that ensures fisheries are continuously 
monitored and improved. When one private third-party needlessly tells 
consumers to ``avoid'' canned tuna, one of the least-expensive, readily 
available sources of healthy seafood for families on a tight budget, 
they make it very difficult for Americans to meet their recommended 
three seafood meals per week per USDA's dietary guidelines.
    NOAA has a responsibility to alleviate confusion and encourage 
Americans to make more trips to the seafood counter by launching a 
stronger communication and outreach program on seafood sustainability. 
Consumers are actively seeking input on sustainability and they want 
this information to come from the U.S. Government, not from privately 
funded third parties. In a survey of nearly 2,000 consumers conducted 
in 2011 by the Gulf Seafood Marketing Coalition, respondents stated 
they were most comfortable with seafood data provided by the Federal 
Government, over and above data from private industry and environmental 
organizations. With the USDA pushing their updated seafood consumption 
guidelines and clarifying guidance for pregnant women, now is an ideal 
time for the Administration to marry the concepts of healthy and 
sustainable seafood in their messaging materials.
    No one understands the importance of robust communications better 
than the Gulf seafood community. In the wake of the Deepwater Horizon 
incident which gushed 200 million gallons of oil into the Gulf of 
Mexico, overcoming public perception that our fisheries were somehow 
``tainted'' became the biggest challenge to the fishing community's 
economic recovery. Despite the fact that thousands of water samples 
taken by FDA, state health agencies and NOAA tested as completely safe, 
consumers avoided Gulf seafood on a massive scale for months. Following 
multi-million dollar marketing campaigns undertaken by the Louisiana 
Seafood Promotion and Marketing Board, the Gulf Seafood Marketing 
Coalition and others, consumers are finally returning to Gulf seafood 
three years after the oil spill. In addition, several letters went out 
from numerous U.S. Senators to Federal agencies calling for support in 
actively promoting the safety of Gulf seafood and asking for strong 
refutation of unscientific claims stating otherwise. While the issue of 
sustainability is separate and apart from seafood safety, there is 
clearly a need for strong communications from NOAA and its partners on 
both sides of the seafood coin.
    In closing, the GSI is pleased to note that the General Service 
Administration (GSA) recently rescinded their guidance that the 
National Park Service look to independent third-parties for seafood 
certifications. However, the fact that the misguided policy was issued 
in the first place is cause for alarm. Further compounding this concern 
is that NOAA was never even consulted prior to GSA issuing this 
guidance. Clearly, NOAA's outreach team has their work cut out for 
them. If the Administration's own personnel are not looking to NOAA for 
the facts on sustainability, the American public certainly can't be 
expected to. One way Congress can ensure this situation doesn't arise 
again would be to pass S. 1521, the Responsible Seafood Certification 
and Labeling Act, which prohibits Federal agencies from requiring 
seafood to be certified as sustainable by a third-party nongovernmental 
organization. GSI encourages members of this Committee to work with 
your colleagues on the Health, Education, Labor and Pensions Committee 
to move S. 1521 as quickly as possible.
    The GSI stands ready to assist Congress, this Committee and the 
Administration in any way possible to get out the positive story on 
Gulf seafood sustainability. We look forward to working with you on 
this and other important seafood issues moving forward. Thank you.
                                 ______
                                 
                                                     Sodexo
                                  Gaithersburg, MD, October 3, 2013

Hon. Mark Begich,
U.S. Senator for the State of Alaska,
Washington, DC.

Hon. Richard Blumenthal,
U.S. Senator for the State of Connecticut,
Washington, DC.

Dear Chairman Begich and Senator Blumenthal:

    Thank you for your leadership on marine and seafood sustainability 
in our Nation's waters and for conducting an important hearing on this 
matter for the Subcommittee on Oceans, Atmosphere, Fisheries, and Coast 
Guard on September 24, 2013. This letter is a follow-up that addresses 
two outstanding questions posed during the hearing. Below are the 
responses to the best of our knowledge and experience:

  1.  How long would it take Sodexo to work out a certification 
        agreement with a new certifying organization?

     As part of Sodexo's Sustainable Seafood strategy, we do and will 
        continue to purchase salmon from Alaska whether or not it is 
        certified by one or several certification programs. While we 
        are open to meeting with certifying bodies/organizations and 
        reviewing other certification schemes, Sodexo does not make its 
        own assessment of any certification program. We are not experts 
        on seafood certification or fishery management practices, so 
        our practice is to seek and consider independent third party 
        advice from credible organizations. Sodexo is willing to work 
        with organizations in good faith and set reasonable timelines 
        mutually agreeable to the certifying organization, Sodexo, and 
        an independent third party advisor.

  2.  How does Sodexo gain confidence that seafood marked as 
        sustainable really is sustainable?

     There have been instances of mislabeling of seafood products and 
        Sodexo believes that chain of custody certification is 
        currently the best way to improve the traceability of supply. 
        That is why Sodexo invests considerable time and resources to 
        ensuring that the partners we work with are reliable, 
        independent, and objective assessors of the various different 
        certifications programs. For this reason, Sodexo is working 
        with the Global Seafood Sustainability Initiative (GSSI) whose 
        mission is to deliver a common, consistent, and global 
        benchmarking tool for seafood certification and labeling 
        programs. This is the best way to ensure confidence in the 
        supply and promotion of sustainable seafood to consumers 
        worldwide, as well as promote integrity in the programs.

    Thank you again for your dedication to this issue and giving Sodexo 
an opportunity to share how our company is working toward the ``Better 
Tomorrow'' that our sustainability strategy aspires to. I trust these 
responses are helpful to you and your work in the Subcommittee. If 
there is anything I can further assist you or the Subcommittee with, 
please feel free to contact me or Jessica Montoya.
            Sincerely,
                                        Michael Montelongo,
                                             Senior Vice President,
                                   Public Policy and Corporate Affairs.

cc: Mr. Robert King, Legislative Assistant, Office of U.S. Senator Mark 
            Begich
Mr. Jeffrey H. Lewis, Counsel, Committee on Commerce, Science, and 
            Transportation
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                              Darren Blue

    Question. At the hearing, I asked you why the U.S. Government is 
not buying more MSC-certified Massachusetts dogfish. This fish is 
sustainable and abundant, and would be a good addition to any seafood 
menu. Could you please clarify if dogfish qualify as sustainable under 
the new GSA purchasing guidelines?
    Answer. The HHS/GSA Health & Sustainability Guidelines for Federal 
Concessions and Vending Operations do not list specific species of fish 
as sustainable. Instead, they provide a general instruction as follows: 
``Where seafood options are offered, provide those procured from 
responsibly managed, sustainable, healthy fisheries.'' GSA believes 
that American-managed fisheries do not require third-party 
certification to demonstrate responsible and sustainable practices. Any 
seafood procured from a sustainable source can be offered on a vending 
or concessions menu in a GSA-controlled facility. You can locate the 
guidelines at www.cdc.gov/chron
icdisease/pdf/
guidelines_for_federal_concessions_and_vending_operations.pdf.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                        Hon. Michael Montelongo

    Question. I appreciate Sodexo's philosophy of corporate 
responsibility, such as your commitment to source local, seasonal or 
sustainably grown or raised products by 2015. Under this policy, would 
locally caught dogfish be an appropriate product for the 492 Sodexo 
locations operating in Massachusetts?
    Answer. Sodexo does not have any contracts for purchase of dogfish; 
however, this does not preclude our local fresh suppliers from selling 
it to our accounts.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
